Case 19-3092, Document 101-1,02/18/2021,3038478, Pagel of 6

19-3092
Cousar v. New York-Presbyterian Queens
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
Rulings by summary order do not have precedential effect. Citation to a
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY
Federal Rule of Appellate Procedure 32.1 and this court's Local Rule 32.1.1.
When citing a summary order in a document filed with this court, a party must
CITE EITHER THE FEDERAL APPENDIX OR AN ELECTRONIC DATABASE (WITH THE NOTATION
"SUMMARY ORDER"). A PARTY CITING A SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 18th day of February, two thousand twenty-one.
PRESENT:

DENNY CHIN,
MICHAEL H. PARK,
Circuit Judges,
KIYO A. MATSUMOTO,
District Judge/
•x

PECOLA COUSAR,
Plaintiff-Appellant,
19-3092

-v- ’

NEW YORK-PRESBYTERIAN QUEENS,
Defendant-Appellee.
•x

Judge Kiyo A. Matsumoto, of the United States District Court for the Eastern District of New
York, sitting by designation.

APPENDIX A

al

Case 19-3092, Document 101-1,02/18/2021,3038478, Page2 of 6

FOR PLAINTIFF-APPELLANT:

Pecola Cousar, pro se, Bronx, New York.

FOR DEFENDANT-APPELLEE:

James S. Frank, John Houston Pope, Epstein
Becker & Green, P.C., New York, New York.

Appeal from the United States District Court for the Eastern District of
New York (Brodie, Ch. J.).
UPON DUE CONSIDERATION, IT IS ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED.
Plaintiff-appellant Pecola Cousar, proceeding pro se, appeals the district
court's judgment entered August 27,2019, in favor of New York-Presbyterian Queens
(the "Hospital"). By memorandum and order entered August 26,2019, the district court
granted the Hospital's motion for summary judgment and denied Cousar’s cross­
motion for summary judgment, her motion for leave to file a second amended
complaint, and her requests for additional discovery. Cousar had asserted claims under
Title VH of the Civil Rights Act of 1964 (’Title VET), 42 U.S.C. § 2000e et seq., the
Americans with Disabilities Act ("ADA"), 24 U.S.C. § 12101, et seq., the New York State
Human Rights Law ("NYSHRL"), and N.Y. Exec. Law § 290 et seq., as well as a breach of
contract claim under New York law.1 This appeal followed. We assume the parties'

1
Cousar was represented by counsel from the filing of her complaint on April 13,2016 to February
7,2017, when the district court granted her motion to relieve her initial counsel, and from April 6,2017
until August 21,2017, when she was represented by pro bono counsel for purposes of mediation. The
mediation was unsuccessful, and thereafter Cousar represented herself.
2

a2

Case 19-3092, Document 101-1, 02/18/2021, 3038478, Page3 of 6

familiarity with the underlying facts, the procedural history of the case, and the issues
on appeal.
I.

Summary Judgment
"We review de novo a district court's grant of summary judgment."

Sotomayor v. City ofNew York, 713 F.3d 163,164 (2d Cir. 2013). "Summary judgment is
proper only when, construing the evidence in the light most favorable to the non­
movant, 'there is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.’" Doninger v. Niehoff, 642 F.3d 334, 344 (2d Cir. 2011)
(quoting Fed. R. Civ. P. 56(a)).
We reject Cousar's various challenges to the district court’s grant of
summary judgment and denial of her cross-motion for summary judgment. Contrary to
Cousar’s assertions, the district court considered — and denied -- Cousar's cross-motion
for summary judgment. Cousar also argues that the district court overlooked or
mischaracterized evidence purportedly establishing a genuine dispute of material fact
in granting the Hospital's motion for summary judgment. We disagree. The district
court's decision accurately described the evidence in the record. Cousar's argument
that the district court violated the Rules Enabling Act, 28 U.S.C. § 2072, also fails. The
district court properly applied the summary judgment procedures in Federal Rule of
Civil Procedure 56, which we have held to be consistent with 28 U.S.C. § 2072. See La
Liberie v. Reid, 966 F.3d 79, 88 (2d Cir. 2020).

3

a3

Case 19-3092, Document 101-1, 02/18/2021,3038478, Page4 of 6

II.

Leave to Amend
We review de novo a district court's denial of leave to amend as futile. See

Smith v. Hogan, 794 F.3d 249, 253 (2d Cir. 2015). Although a pro se plaintiff should be
ttgrant[ed] leave to amend at least once when a liberal reading of the complaint gives
any indication that a valid claim might be stated," Cuoco v. Moritsugu, 222 F.3d 99,112
(2d Cir. 2000) (internal quotation marks omitted), "a futile request to replead should be
denied." Id. Cousar argues on appeal that her proposed amendment to add a 42 U.S.C.
§ 1981 claim would not be futile because the statute of limitations had not run for such a
claim. But this was not the basis for the district court's ruling -- it found that the
proposed § 1981 claim was futile because (1) the record did not contain any evidence
that Cousar was treated differently on account of her race, color, or national origin, and
(2) to the extent that Cousar alleged new facts in the proposed second amended
complaint, these amendments contradicted Cousar's deposition testimony. See Burgis v.
N.Y.C. Dep't of Sanitation, 798 F.3d 63, 68 (To prevail on a § 1981 claim, a plaintiff must
show that "defendants acted with discriminatory intent."); cf. Rojas v. Roman Catholic
Diocese of Rochester, 660 F.3d 98,104-05 (2d Cir. 2011) (affirming grant of summary
judgment based on conclusion that plaintiff presented "sham evidence" that "directly
contradicted" her prior sworn statements). Cousar does not challenge these findings on
appeal. The proposed addition of defendants -- requested after Cousar had already

4

a4

Case 19-3092, Document 101-1, 02/18/2021, 3038478, Page5 of 6

filed an amended complaint — was also futile; claims against the Hospital's employees
would have failed for the same reasons as the claims against the Hospital.
III.

Request to Reopen Discovery
We review discovery rulings for abuse of discretion. Grady v. Affiliated

Cent., Inc., 130 F.3d 553, 561 (2d Cir. 1997). The district court denied one of Cousar's
requests to extend discovery during a September 14, 2018 hearing, and it denied her
request to reopen discovery in support of her proposed second amended complaint in
its August 26, 2019 memorandum and order. Neither denial constituted an abuse of
discretion. See Scott v. Chipotle Mexican Grill, Inc., 954 F.3d 502,512 f[W]e will only find
abuse fof discretion! when die district court's decision rests on an error of law or a
clearly erroneous factual finding, or its decision cannot be located within the range of
permissible decisions.") (citations and internal quotation marks omitted). The court had
already granted one discovery extension while Cousar was represented by counsel, and
three more extensions after she elected to proceed pro se. Cousar's request for discovery
included likely irrelevant information from a union that did not represent her, and a
request for interrogatories to non-parties, which was improper under Federal Rule of
Civil Procedure 33. See Fed. R. Civ. P. 33 (providing for interrogatories to parties only).
Finally, the district court did not abuse its discretion in denying Cousar's request for
discovery in support of her proposed second amended complaint because the proposed
amendment was futile, as discussed above.

5

a5

Case 19-3092, Document 101-1, 02/18/2021,3038478, Page6 of 6

We have considered Cousar's remaining arguments and conclude they are
without merit.2 For the foregoing reasons, we AFFIRM the judgment of the district
court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

2
To the extent that Cousar argues that the judgment should be reversed because her first attorney
was ineffective, this argument is meritless because, "except when faced with the prospect of
imprisonment, a litigant has no legal right to counsel in civil cases" - and, by extension, no right to
effective counsel. See Guggenheim Cap., LLC v. Birnbaum, 722 F.3d 444,453 (2d Cir. 2013). Separately, the
district court did not err in stating that Cousar was proceeding pro se, as she was pro se when the Hospital
filed its summary judgment motion. And even if this were an error, it would have been harmless as it
had no bearing on the district court's analysis. The district court was also not required to recount
Cousar's allegations against her former attorney, as the allegations were not relevant to the issues before
it. Finally, Cousar's allegations of judicial bias rely entirely on adverse decisions and are thus without
merit See Chen v. Chen Qualified Settlement Fund, 552 F.3d 218,227 (2d Cir. 2009) ("[Ajdverse rulings,
without more, will rarely suffice to provide a reasonable basis" for a judicial bias claim.).

6

a6

Case l:16-cv-01784-MKB-LB Document 105 Filed 08/27/19 Page 1 of 1 PagelD #: 1022

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X

PECOLA COUSAR,
Plaintiff,

JUDGMENT
16-CV-1784 (MKB)

v.
NEW YORK-PRESBYTERIAN/QUEENS,
Defendant.
-X

A Memorandum and Order of Honorable Margo K. Brodie, United States District Judge,
having been filed on August 26,2019, granting Defendant’s motion for summary judgment;
denying Plaintiff’s cross-motion for summary judgment; and denying Plaintiff’s motion for
leave to amend; it is
ORDERED and ADJUDGED that Defendant’s motion for summary judgment is granted;
that Plaintiff’s cross-motion for summary judgment is denied; that Plaintiff’s motion for leave to
amend is denied; and that judgment is hereby entered in favor of Defendant.
Dated: Brooklyn, NY
August 27,2019

Douglas C. Palmer
Clerk of Court
By:

/sIJalitza Poveda
Deputy Clerk

APPENDIX B

a7

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 1 of 47 Page!D #: 975

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK

PECOLA COUSAR,
Plaintiff,

MEMORANDUM & ORDER
16-CV-1784 (MKB)

v.
NEW YORK-PRESBYTERIAN/QUEENS,
Defendant.

MARGO K. BROD1E, United States District Judge:
Plaintiff Pecola Cousar, proceeding pro se, commenced the above-captioned action on
April 13, 2016, against Defendant New York-Presbyterian/Queens, (Compl., Docket Entry No.
1), and on January 26,2018, filed an Amended Complaint, alleging violations of Title VII of the
Civil Rights Act of 1964,42 U.S.C. § 2000e et seq. (“Title VII”), the Americans with
Disabilities Act of 1990, 42 U.S.C. § 12101 etseq. (“ADA”), and New York State Human Rights
Law, N.Y. Exec. Law § 290 etseq. (“NYSHRL”), (Am. Compl., Docket Entry No. 42). Plaintiff
asserts claims pursuant to (1) Title VII for race and color discrimination, retaliation, and hostile
work environment, (2) the ADA for denial of a reasonable accommodation and discrimination,
and (3) NYSHRL for discrimination and retaliation. (Id.)
Currently before the Court is Defendant’s motion for summary judgment as to all claims,
(Def. Mot. for Summ. J. (“Def. Mot.”), Docket Entry No. 81; Def. Mem. in Supp. of Def. Mot.
(“Def. Mem.”), Docket Entry No. 87), and Plaintiffs cross-motion for summary judgment, (PI.
Aff. Request for Summ. J. (“PI. Request”), Docket Entry No. 59; PI. Aff. in Resp. to Def. Mot.
(“PI. Resp.”), Docket Entry No. 92; PI. Mem. of Law in Supp. of PI. Response (“PI. Mem.”),

APPENDIX C

a8

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 2 of 47 Page!D #: 976

Docket Entry No. 95).1 Plaintiff also moves for leave to file a second amended complaint;
Defendant opposes this request. (PI. Mot. for Leave to File Second Am. Compl. (“PI. Mot. for
Leave”), Docket Entry No. 77; Def. Mem. in Opp’n to PI. Mot. for Leave (“Def. Opp’n”),
Docket Entry No. 78.) For the reasons set forth below, the Court grants Defendant’s motion and
denies Plaintiffs cross-motion. The Court also denies Plaintiffs motion to amend the Amended
Complaint.
I.

Background
Plaintiff is a black African-American woman.2 (PI. Aff. of Fact-Status, Docket Entry No.

51.) Defendant is a not-for-profit hospital that provides inpatient, ambulatory, and preventative
care. (Def. Statement of Material Facts Pursuant to Local Rule 56.1 (“Def 56.1 ”) K 2, Docket
Entry No. 97.)
a.

Plaintiffs employment

On April 11,2011, Donna Arzberger, Defendant’s Director of Perioperative Services and
Nurse Manager, hired Plaintiff as an Operating Room Technician (“ORT”). (Id.

3-4.)

Plaintiff s application for employment specified that her employment was at-will. (Id. f 6;
Employment Appl., annexed to Decl. of Brian G. Cesaratto (“Cesaratto Decl”) as Ex. C 5,
Docket Entry No. 86-3.) ORTs serve as support staff during surgical procedures conducted in
operating rooms. (Def. 56.1 % 8.) ORTs are responsible for timely reporting to their assigned

1 Plaintiff filed several additional documents in response to Defendant’s motion for
summary judgment and in support of her motion for summary judgment. (PI. Aff. Am. for Race
and Color Misnomers along with African American, Black, Indian, Docket Entry No. 93; PI. Aff
for Response Affs. of Donna Arzberger and Lorraine Orlando, Docket Entry No. 94; Aff. Matter
of Proof of Claim and Designated Trustee on Account, Docket Entry No. 100.) To the extent
that they are relevant, the Court considers these documents in deciding the motions.
2 Plaintiff disputes the use of the terms “African American” and “Black,” and identifies
as “a Natural Person with a Nationality.” (PI. Aff. of Fact-Status, Docket Entry No. 51.)
2

a9

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 3 of 47 Page!D #: 977

operating room, preparing surgical instruments and supplies needed for the surgery, and
providing those tools and supplies to the surgeon during procedures. (Id. U 9; Position
Description, annexed to Cesaratto Decl. as Ex. D, Docket Entry No. 86-4.) ORTs are required to
“[m]aintain[] an acceptable record of attendance” and “[m]aintain[] a consistent record of
punctuality.” (Def. 56.1 ^ 11; Position Description.)
Plaintiff regularly alternated overnight shifts with another ORT, Megan Sedita. (Dep. Tr.
of Pecola Cousar (“Cousar Dep.”), annexed to Cesaratto Decl. 212:20-23, Docket Entry No. 86.)
Plaintiff testified at her deposition that her shift ended at 7:00 AM,3 (Cousar Dep. 212:2-6), but
Defendant contends that Plaintiff was regularly assigned to work four days per week, beginning
at 9:00 PM and ending at either 7:00 AM or 7:15 AM, depending on the shift, (Def. 56.1 f 15;
Aff. of Lorraine Orlando (“Orlando Aff.”)

10, Docket Entry No. 83). Defendant maintains that

it scheduled Plaintiff and Sedita “to work the extra fifteen (15) minutes in two (2) shifts each
work week so that they were scheduled for 40.5 hours, and actually worked 37.5 hours after
receiving a 45-minute lunch break each shift.” (Def. 56.1 % 16; Orlando Aff. % 10.)
Defendant has an “automated time keeping system,” which required Plaintiff to “punch in
and out of scheduled shift times” by using her fingerprint to verify her identity. (Def. 56.1 fflj
18-20; Cousar Dep. 169:6-16; Orlando Aff.
i.

11.)

Defendant’s attendance policies

Defendant’s vacation policy allows for seniority preference in determining “time off.”
Defendant hired Sedita in August of 1998 and hired Plaintiff in April of 2011, and, as a result,

3 Plaintiff also testified during her deposition that at some time during the beginning of
her employment, she was “told that [she] needed to clock out at 7:15” and was later told that “the
schedule reflects those particular days that [she is] supposed to do 7:15.” (Cousar Dep. 36:1825.) .
3

alO

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 4 of 47 PagelD #: 978

Sedita received preference for time off due to her seniority. (Def. 56.1 f 24; Cousar Dep. 66:1725; Orlando Aff. % 37.)
Defendant’s Attendance and Punctuality Policy and Sick Leave Policy allow for
discipline of employees who exhibit time and attendance issues. (Def. 56.1

22.) The

Attendance and Punctuality Policy states that “a reasonable amount of absence or lateness due to
bona fide personal illness, family member illness or emergency situations is to expected in any
work force. However, use of these benefits must be reasonable, and habitual or excessive
absence or lateness may be cause for corrective action, up to and including discharge.” (Def.
56.126; Orlando Aff.

12; Attendance and Punctuality Policy, annexed to Cesaratto Decl. as

Ex. F, Docket Entry No. 86-6.)
The Attendance and Punctuality Policy describes excessive absenteeism as:
(i) two (2) separate occurrences of absences within the same month
for two (2) consecutive months; (ii) one (1) or more separate
occurrences of absence per month within a three (3) consecutive
month period; (iii) four (4) or more separate occurrences of absence
in any ninety (90) day period; (iv) separate occurrences of absences
that total twelve (12) per rolling twelve (12) month period; or (v)
any patterned occurrences of absences which are similar and/or
repetitive such as the same day each week, days taken prior to or
after regular days off, holidays, vacations, paydays, scheduled days
off, or on weekends and holidays when the employee is scheduled
to work.
(Def 56.1 f 28; Orlando Aff.

13; Attendance and Punctuality Policy.)

In addition, Defendant’s Sick Leave Policy provides that “[i]f an employee is absent for
three sick leave occurrences (excluding disability and workers’ compensation) he/she should be
counseled regarding the medical center’s attendance standard of a maximum of three occurrences
in any given appraisal period (12 months). An employee’s failure to comply with this standard
may result in disciplinary action for excessive absenteeism.” (Def. 56.1 % 32; Orlando Aff. % 14;
Sick Leave Policy, annexed to Cesaratto Decl. as Ex. G, Docket Entry No. 86-7.)
4

all

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 5 of 47 PagelD #: 979

The Attendance and Punctuality Policy defines “[excessively late” as “(i) two (2)
occurrences of lateness within the same month; (ii) four (4) occurrences of lateness within a two
(2) consecutive month period; or (iii) six (6) occurrences of lateness within a three (3)
consecutive month period.” (Def. 56.1 U 30; Orlando Afif. 1J13; Attendance and Punctuality
Policy.) An employee who is excessively absent or excessively late “may be subject to
corrective action including but not limited to discharge.” (Def. 56.1

28-30; Orlando Aff. \

13; Attendance and Punctuality Policy.)
In order to use sick leave due to an unforeseen illness or injury, employees must notify
their department head or supervisor “at least one (1) hour prior to the beginning of their
scheduled shift.” (Def. 56.1 f 34; Orlando Aff. ^ 14; Sick Leave Policy.) An employee is
subject to loss of pay or disciplinary measures if an employee fails to notify the department head
or supervisor of an absence before the scheduled shift. (Def. 56.1 TJ 36; Orlando Aff. J 14; Sick
Leave Policy.) Plaintiff admits that she was aware of Defendant’s Sick Leave Policy. (Def. 56.1
U33; Cousar Dep. 164:14—25; Sick Leave Policy.)
ii.

Plaintiff’s attendance and disciplinary record

In 2012, Plaintiff was counseled for excessive sick time because she was absent from
work on seven occasions within a six-month period. (Def. 56.1J 37; Cousar Dep. 160:11-22;
164:4—25; Orlando Aff. f 16; R. of Counseling/Discussion, annexed to Cesarratto Decl. as Ex. H,
Docket Entry No. 86-8.) Arzberger told Plaintiff to “[w]atch her sick time” because of the
Defendant’s Sick Leave Policy. (Cousar Dep. 164:4—25.)
In June of 2013, Plaintiff called her Charge Nurse an “idiot,” which resulted in a two-day
suspension for insubordination. (Def. 56.1

39-41; Orlando Aff. f 16; June 2013 R. of

Incident and Corrective Action, annexed to Cesarratto Decl. as Ex. I, Docket Entry No. 86-9.)

5

al2

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 6 of 47 PagelD #: 980

The suspension was later reduced to verbal counseling. (Def. 56.1 41; Cousar Dep. 105:25106:5,172:11-19; June 2013 R. of Incident and Correction Action; June 2013 R. of Offense and
Warning, annexed to Cesarratto Decl. as Ex. J, Docket Entry No. 86-10.)
On March 27,2014, Plaintiff did not advise her manager that Defendant’s Workforce and
Health and Safety Department had cleared her to return to work on March 28, 2014, (Def. 56.1
42; Orlando Aff.

18; Mar. 2014 R. of Counseling/Discussion, annexed to Cesaratto Deck as

Ex. K, Docket Entry No. 86-11), and, as a result, Defendant arranged coverage for Plaintiffs
March 28,2014 shift and, on April 2,2014, issued Plaintiff verbal counseling due to her absence.
(Def. 56.1

43-44; Orlando Aff. ^ 18; Mar. 2014 R. of Counseling/Discussion.)

On April 19, 2014, Plaintiff was absent ffom her shift because she was sick. (Def. 56.1
H 45; Orlando Aff. % 19; Employee Work Schedule, annexed to Cesaratto Decl. as Ex. X, Docket
Entry No. 86-24.) On April 20,2014, Plaintiff was again absent ffom her shift and did not notify
her department in advance that she would not be working that day. (Def. 56.1 46; Cousar Dep.
237:10-238:5; Orlando Aff. % 19; Employee Work Schedule; see also Sick Leave Policy.)
Plaintiff received a “Record of Incident and Correction Action” and a one-day suspension for the
“no call/no show” on April 20, 2014. (Def. 56.1 f 48; Cousar Dep. 240:7-25; Orlando Aff. % 20;
Apr. 2014 Record of Incident and Corrective Action, annexed to Cesaratto Decl. as Ex. L,
Docket Entry No. 86-12.)
From April 30,2014 to May 3, 2014 and ffom May 22, 2014 to May 24,2014, Plaintiff
was absent from work due sickness and did not report for her scheduled shifts. (Def. 56.147,
49; Orlando Aff.

19,21; Employee Work Schedule.)

On May 29,2014, because Plaintiff had taken three or more sick days in less than three
months, Defendant verbally counseled Plaintiff for excessive sick time in April and May of

6

al3

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 7 of 47 PagelD #: 981

2014. (Def. 56.1 U 50; Orlando Aff. ^ 21; May 2014 R. of Incident and Corrective Action,
annexed to Cesaratto Decl. as Ex. M, Docket Entry No. 86-13; see also Sick Leave Policy.)
On December 4, 2014, Plaintiff was counseled for “disrespect of authority” and was
“instructed to act in a professional manner when speaking to her supervisors and managers.”4
(Def. 56.1 Iff 51-52; Orlando Aff. T| 22; Dec. 2014 Record of Counseling/Discussion, annexed to
Cesaratto Decl. as Ex. N, Docket Entry No. 86-14.)
On January 9, 2015, Plaintiff arrived one minute late for her 9:00 PM shift, and, on
January 16,2015, Plaintiff was a “no call/no show” for her 9:00 PM shift. (Def. 56.1 IflJ 53-54;
Orlando Aff. 23; Employee Work Schedule; Feb. 2015 R. of Incident and Corrective Action,
annexed to Cesaratto Decl. as Ex. O, Docket Entry No. 86-15.)
On January 16, 2015, Plaintiff’s nighttime supervisor called Plaintiff to ask her why she
was absent from work that day and “Plaintiff answered the phone, asked what day it was, said
she was sleeping and would call back when she awoke.” (Def. 56.1 U 55; Cousar Dep. 278:16282:12; Feb. 2015 R. of Incident and Corrective Action.)
On February 11,2015, Plaintiff arrived at 9:12 PM for her 9:00 PM shift. (Def. 56.1
H 56; Orlando Aff. ^ 24; Employee Work Schedule; Cousar Timecard, annexed to Cesaratto
Decl. as Ex. Z, Docket Entry No. 86-26.)
On February 25, 2015, Plaintiff received a “Final Written Warning” for her absence on
January 16,2015 and for her failure to notify the department of her absence in advance. (Def.
56.1 U 57; Orlando Aff. % 24; Feb. 2015 R. of Incident and Corrective Action.)
On March 7 and March 8,2015, Plaintiff arrived to work at 7:14 PM and 7:08 PM,

4 A Record of Counseling Memo submitted by Defendant indicates that Plaintiff was
instructed to act in a professional manner when speaking to her supervisors/managers, and
Plaintiff stated she was not being disrespectful. (Dec. 2014 R. of Counseling Discussion.)
7

al4

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 8 of 47 PagelD #: 982

respectively, for her scheduled 7:00 PM shift. (Def. 56.1 U 58-59; Orlando Aff. % 25; Employee
Work Schedule; Cousar Timecard.)
On March 10,2015, Plaintiff was an hour and ten minutes late for her scheduled 9:00 PM
shift. (Def. 56.1 1| 60; Orlando Aff. H 25; Employee Work Schedule; Cousar Timecard.) On
March 18,2015, because of Plaintiffs excessive lateness under Defendant’s Attendance and
Punctuality Policy, Defendant issued to Plaintiff a “Final Written Warning.” (Def. 56.1 1ffl 6162; Orlando Aff. U 25; Mar. 2015 Record of Incident and Corrective Action, annexed to
Cesaratto Decl. as Ex. P, Docket Entry No. 86-16; Attendance and Punctuality Policy.)
On March 11, 26, and 27,2015, Plaintiff clocked out at 7:04 AM, 7:04 AM, and 7:03
AM, respectively, before the 7:15 AM scheduled end times of her shifts. (Def. 56.1 til 63-65;
Orlando Aff. 126; Employee Work Schedule; Cousar Schedule, annexed to Cesaratto Decl. as
Ex. Y, Docket Entry No. 86-25; Cousar Timecard.) On April 28, 2015, Plaintiff received a
Record of Incident and Corrective Action and a one-day suspension for arriving late to work or
leaving work early several times in the span of one month — on March 7, 8, 10, 11, 26, and 27,
2015.5 (Def. 56.1166; Cousar Dep. 303:24-304:6; Orlando Aff. 127; Apr. 2015 Record of
Incident and Corrective Action, annexed to Cesaratto Decl. as Ex. Q, Docket Entry No. 86-17.)
That same day, Arzberger told Plaintiff that she needed to wait until 7:15 AM to clock out for
certain shifts. (Def. 56.1 H 67; Cousar Dep. 316:7-12.)
Plaintiff requested time off during Mother’s Day weekend in 2015, May 8, 2015 to May
10,2015. (Def. 56.11f 90; Cousar Dep. 253:7—11; Orlando Aff. If 37.) Plaintiff made the request
for time off in November of 2014. (Cousar Dep. 253:7-11.) Defendant granted Plaintiffs

3 During her deposition, Plaintiff testified that some of the dates were not accurate but
could not verify which dates were inaccurate because she did not have her schedule. (Cousar
Dep. 304:7-21.)
8

al5

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 9 of 47 PagelD #: 983

requests to take May 8th and 9th off, but denied Plaintiff time off for May 10th because her coworker Sedita requested to take that shift off. (Def. 56.1 f 92; Cousar Dep. 253:12-16; Orlando
Aff. H 37; Hopkins Email, annexed to Cesaratto Decl. as Ex. W, Docket Entry No. 86-23.)
Plaintiff alleges that Defendant’s decision to deny her time off on May 10,2015 was due to
discriminatory treatment because, although Defendant’s seniority policies apply to vacation days,
they do not apply to “regular days off.” (Cousar Dep. 253:17-21; PI. Resp. ^ 14.)
On May 21,22, 27, and 28,2015, Plaintiff clocked out before 7:15 AM; Defendant
contends that Plaintiff s shift ended at 7:15 AM on these dates. (Def. 56.1 U1 68-71; Orlando
Aff. 28; Employee Work Schedule; Cousar Schedule; Cousar Timecard.) Plaintiff disagrees
that she was required to work until 7:15 AM on those days, and alleges that Defendant forged her
employment contract or agreement and that the “7:15[AM] time is a made-up construct” so that
Defendant can make time and attendance an issue and terminate her employment. (Def. 56.1
189.)
On June 3,2015, Defendant suspended Plaintiff for three days for clocking out early.
(Def. 56.1 T[ 72; Orlando Aff. f 29; June 2015 R. of Incident and Corrective Action, annexed to
Cesaratto Decl. as Ex. R, Docket Entry No. 86-18.) The June 2015 Record of Incident and
Corrective Action notified Plaintiff that any further incidents of lateness or leaving work early
without permission would result in the termination of her employment. (Def. 56.172-73;
Cousar Dep. 319:8—320:6; Orlando Aff. 29; June 2015 R. of Incident and Corrective Action.)
On June 5,2015, Lorraine Orlando, Defendant’s Vice President of Human Resources,
and Kristen Hutchinson, Defendant’s Employee and Labor Relations Manager, informed
Plaintiff during a telephone conversation that she was required to work until 7:15 AM “for the
last two shifts of every week.” (Def. 56.1 ^ 74; Orlando Aff. f 30.) During this conversation,

9

al6

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 10 of 47 PagelD #: 984

Plaintiff requested that Defendant confirm her schedule in writing. (Def. 56.1 f 75; Orlando Aff.
30.) On June 8,2015, Orlando emailed Plaintiff confirming that she was required to work until
7:15 AM for the last two shifts of every week. (Def. 56.1 % 76; Cousar Dep. 323:23-327:23;
Orlando Aff. U 30; Orlando Email, annexed to Cesaratto Deck as Ex. S, Docket Entry No. 8619.)
On June 20,2015, Plaintiff was eight minutes late for her scheduled 7:00 PM shift. (Def.
56.1 T| 77; Orlando Aff. 31; Employee Work Schedule; Cousar Schedule; Cousar Timecard.)
That same day, Plaintiff clocked out thirteen minutes before 7:15 AM. (Def. 56.1 *[j 78; Orlando
Aff. 31; Employee Work Schedule; Cousar Schedule; Cousar Timecard.)
On June 25,2015, Plaintiff clocked in thirty-one minutes late for her 9:00 PM shift.
(Def. 56.1 Tj 79; Orlando Aff. ^ 31; Employee Work Schedule; Cousar Schedule; Cousar
Timecard.)
On June 26,2015, Arzberger, in consultation with Defendant’s Human Resources (“HR”)
Department, decided to terminate Plaintiffs employment because of her time and attendance
record. (Def. 56.1
b.

80-81; Orlando Aff f 32; June 2015 Record of Offense and Warning.)

Plaintiffs injury and subsequent termination

On June 26, 2015, the same day that Defendant decided to terminate Plaintiffs
employment, Plaintiff sustained an injury to her toe during her shift; Defendant delayed
Plaintiffs termination and allowed her to take a leave of absence until August 20, 2015. (Def.
56.1 H 82; Orlando Aff. K 33.)
On August 20,2015, Plaintiff returned to work and met with HR; Defendant terminated
Plaintiffs employment for time and attendance issues. (Def. 56.1183.)

10

al7

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 11 of 47 PagelD #: 985

c.

Plaintiffs disability and complaints of discrimination

In her initial Complaint,6 Plaintiff alleged that Defendant “treated her less favorably in
terms of her employment conditions due to her disability and related time off.” (Compl. f 15.)
Plaintiff testified during her deposition that she was referencing her post-traumatic stress
disorder (“PTSD”). (CousarDep. 152:5-14.)
Plaintiff alleges that her doctor stated in 2013 and 2014 that she needed to take time off
due to the stress of “dealing with Plaintiffs manager.” (PI. Aff. in Resp. Tj 88.) The “stress
‘necessitated’ two different letter [sic] to take time off[,]” but Defendant “disregard[ed the]
documents” and “craftfed]... Plaintiffs medical need as a ‘mere’ request for personal time
off.”7 (Id.) At her deposition, Plaintiff testified that she did not discuss her disability with
Defendant nor request an accommodation. (Def. 56.1 f 88; Cousar Dep. 152:19-154:10.)
On June 5,2014, Plaintiff emailed Defendant’s Human Resources Department
complaining of racial discrimination and unfair treatment by Arzberger.8 (June 5, 2014 Email,
annexed to PL Aff. in Resp./Rebuttal as Ex. 2, Docket Entry No. 52.) On June 23, 2014, Orlando

6 Although Plaintiff filed an Amended Complaint asserting claims for retaliation and
breach of contract only, it does not appear that Plaintiff intended to abandon the claims and
allegations made in the initial Complaint. In view of the fact that Defendant addressed all of
Plaintiffs claims, including those included only in the initial Complaint, the Court considers all
of Plaintiffs claims.
7 Plaintiff did not file copies of the letters.
8

The record contains a partial copy of a handwritten letter, with an EEOC stamp dated
June 6,2014, in which Plaintiff states that she felt “discriminated and targeted by [Arzberger].”
(June 2014 EEOC Compl., annexed to PI. Feb. 26, 2018 Aff.) The letter includes a reference to
“charge # 520-2014-02365” and lists “Orfelino Genao” as the “investigator.” (Id.) However,
there is nothing in the record to indicate when or whether Defendant received notice of this
letter. The Court notes, however, that the charge number referenced in the handwritten letter is
the same charge number listed on Plaintiffs April 2015 EEOC Complaint. (June 2014 EEOC
Compl.; April 2015 EEOC Compl.) The partial handwritten letter does not include any
allegations of retaliatory conduct.
11

al8

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 12 of 47 PagelD #: 986

emailed Arzberger and Levine about Plaintiffs June 5,2014 email and stated “[w]e need to sit
her down and finish this.” (June 23, 2014 Email annexed to PL Aff. in Resp./Rebuttal as Ex. 3,
Docket Entry No. 52.)
On February 11,2015, Plaintiff filed a charge of race and disability discrimination with
the EEOC. (Feb. 2015 EEOC Compl., annexed to Cesaratto Decl. as Ex. V, Docket Entry No.
86-22.) Defendant received notice of the February 2015 EEOC Complaint on February 13,
2015. (Id.)
On April 24,2015, Plaintiff amended her February 2015 EEOC Complaint to add a claim
for retaliation. (Apr. 2015 EEOC Compl.) Defendant received notice of the amended April
2015 EEOC Complaint on May 14, 2015. (May 14, 2015 Email, annexed to PI. Aff. in
Resp./Rebuttal as Ex. 1, Docket Entry No. 52.)
Tn her initial Complaint, Plaintiff alleges that “[i]n or about August of 2015, Plaintiff’s
foot was injured by a metal cart full of surgical instrumentation as she was setting up for a
patient.” (Compl. 28.) Plaintiff also alleges that she “was taken out of work by her physician
as a result of the related injury and disability temporarily preventing her from performing the
essential functions of her position as a Surgical Scrub Tech.” (Id.) Plaintiff returned to work on
August 20,2015 and provided Defendant with a doctor’s note indicating that Plaintiff could
return to work. (Id. *|| 29.) Defendant terminated Plaintiff’s employment on August 20,2015.
(Id. UK 30-31.)
n. Discussion
a.

Standard of review

Summary judgment is proper only when, construing the evidence in the light most
favorable to the non-movant, “there is no genuine dispute as to any material fact and the movant

12

al9

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 13 of 47 PagelD #: 987

is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); Wandering Dago, Inc. v.
Destito, 879 F.3d 20,30 (2d Cir. 2018); see also Cortes v. MTA NYC Transit, 802 F.3d 226, 230
(2d Cir. 2015). The role of the court “is not to resolve disputed questions of fact but only to
determine whether, as to any material issue, a genuine factual dispute exists.” Rogoz v. City of
Hartford, 796 F.3d 236, 245 (2d Cir. 2015) (first quoting Kaytor v. Elec. Boat Corp., 609 F.3d
537, 545 (2d Cir. 2010); and then citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249-50
(1986)). A genuine issue of fact exists when there is sufficient “evidence on which the jury
could reasonably find for the plaintiff.” Anderson, All U.S. at 252. The “mere existence of a
scintilla of evidence” is not sufficient to defeat summary judgment. Id. The court’s function is
to decide “whether, after resolving all ambiguities and drawing all inferences in favor of the
nonmoving party, a rational juror could find in favor of that party.” Pinto v. Allstate Ins. Co.,
221 F.3d 394, 398 (2d Cir. 2000).
b.

Title VII discrimination claim

Defendant argues that Plaintiff has failed to established a prima facie case of race or
color discrimination because “[n]o indicia of discrimination are present.” (Def. Mem. 13.)
Plaintiff argues that Arzberger treated her differently than her white counter-parts
because of her race and color. {See generally PI. 56.1 .)9
Title VII discrimination claims are analyzed under the three-stage, burden-shifting

9 On May 5,2018, Plaintiff filed an “Affidavit Request for Summary Judgment” and
attached evidence in support, including her June 2014 Email to HR, an audio recording and
unauthenticated transcription of the audio call between Plaintiff and Mercy Thomas, Plaintiff’s
previous supervisor, and supplemental pleadings alleging breach of contract. (PI. Request.) In
addition, over the course of this litigation, Plaintiff has filed several affidavits, some of which
include documents in support of Plaintiff’s claim. To the extent relevant, the Court considers
these documents in addressing Defendant’s motion for summary judgment and Plaintiff’s motion
for summary judgment.
13

a20

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 14 of 47 PagelD #: 988

framework established by the Supreme Court in McDonnell Douglas Corp. v. Green, 411 U.S.
792 (1973). See Kovaco v. Rockbestos-Surprenant Cable Corp., 834 F.3d 128, 136 (2d Cir.
2016); Littlejohn v. City of New York, 795 F.3d 297, 307-08 (2d Cir. 2015); see also TiUeiy v.
N. Y. State Office ofAlcoholism & Substance Abuse Servs., 739 F. App’x 23, 25 (2d Cir. 2018);
Tolbert v. Smith, 790 F.3d 427,434 (2d Cir. 2015) (stating that Title VII and NYSHRL claims
are evaluated under the McDonnell Douglas framework). Under the framework, a plaintiff must
establish aprima facie case of discrimination. See Vega v. Hempstead Union Free Sch. Dist.,
801 F.3d 72, 83 (2d Cir. 2015); see also St. Maiy’s Honor Ctr. v. Hicks, 509 U.S. 502, 506
(1993); Ruiz v. County ofRockland, 609 F.3d 486,491 (2d Cir. 2010). If the plaintiff meets this
“minimal” burden, Holcomb v. Iona Coll., 521 F.3d 130, 139 (2d Cir. 2008), a “temporary
presumption” of discrimination arises, and the burden shifts to the defendant-employer to
articulate a legitimate, nondiscriminatory reason for the challenged conduct, Vega, 801 F.3d at
84 (quoting Littlejohn, 795 F.3d at 307, 311). See St. Mary’s Honor Ctr., 509 U.S. at 506-07;
Ruiz, 609 F.3d at 492. The defendant's burden “is one of production, not persuasion; it ‘can
involve no credibility assessment.’” Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133,
142 (2000) (quoting St. Mary’s Honor Ctr., 509 U.S. at 509). If the defendant-employer
articulates such a reason, the burden shifts back to the plaintiff to show that the defendantemployer’s reason was pretext for the discrimination. Vega, 801 F.3d at 83; see also Tillery, 739
F. App’x at 25 (“[T]he plaintiff must present admissible evidence ... that would be sufficient to
permit a rational finder of fact to infer that the defendant’s employment decision was more likely
than not based in whole or in part on discrimination.” (citing Aulicino v. N.Y.C. Dep’t of
Homeless Servs., 580 F.3d 73, 80 (2d Cir. 2009))); Henry v. Wyeth Pharm., Inc., 616 F.3d 134,
156 (2d Cir. 2010) (“[A] plaintiff need only show that the defendant was in fact motivated at

14

a21

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 15 of 47 Page!D #: 989

least in part by the prohibited discriminatory animus.”).
i.

Primafacie case

To establish a prima facie case of employment discrimination under Title VII, a plaintiff
must show that: “(1) she is a member of a protected class; (2) she is qualified for her position; (3)
she suffered an adverse employment action; and (4) the circumstances give rise to an inference
of discrimination.” Vega, 801 F.3d at 83 (quoting Weinstock v. Columbia Univ., 224 F.3d 33,42
(2d Cir. 2000)); see also Shultz v. Congregation Shearith Israel of City ofN.Y., 867 F.3d 298,
304 (2d Cir. 2017); Meyer v. NY. State Office ofMental Health, 679 F. App’x 89, 90 (2d Cir.),
cert, denied, 138 S. Ct. 143 (2017); Ruiz, 609 F.3d at 491-92.
Plaintiff identifies as black and Defendant does not dispute that she belongs to a protected
class. (See generally Def. Mem.); see also Littlejohn, 795 F.3d at 312 (finding the plaintiff
satisfied the first element by self-identifying as black). In addition, although Plaintiff received
disciplinary complaints concerning time and attendance and insubordination, Defendant does not
dispute that Plaintiff was qualified for her position. See Kaboggozamusoke v. Rye Town Hilton
Hotel, 370 F. App’x 246, 248 n.l (2d Cir. 2010) (“[A]ll that is required is that the plaintiff
establish basic eligibility for the position at issue.” (alteration in original) (citation omitted)); see
also Slattery v. Swiss Reinsurance Am. Corp., 248 F.3d 87,92 (2d Cir. 2001) (“As we have
repeatedly held, the qualification necessary to shift the burden to defendant for an explanation of
the adverse job action is minimal; plaintiff must show only that he possesses the basic skills
necessary for performance of the job. As a result, especially where discharge is at issue and the
employer has already hired the employee, the inference of minimal qualification is not difficult
to draw.” (alteration, citations, and internal quotation marks omitted)). Further, Defendant does
not dispute that disciplinary actions against Plaintiff—the May 16,2014 Record of Incident and

15

a22

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 16 of 47 PagelD #: 990

Corrective Action, February 25,2015 Final Written Warning, March 18,2015 Final Written
Warning, and June 3,2015 Record of Incident and Corrective Action (the “corrective actions”)
— and her termination are adverse employment actions.
Defendant argues, however, that the denial of Plaintiff’s requested time off in May of
2015 does not constitute an adverse employment action and further argues that Plaintiff has not
shown any inference of discrimination with regard to any adverse action. (Def. Mem. 24.)
1. The denial of Plaintiffs request for time off is not an adverse
employment action
An “adverse employment action” is “a materially adverse change in the terms and
conditions of employment.” Shultz, 867 F.3d 298,304 (2d Cir. 2017) (quoting Galabya v. N. Y
CityBd. ofEdue., 202 F.3d 636,640 (2d Cir. 2000)); see also Chung v. City Univ. ofN. Y., 605 F.
App’x 20,22 (2d Cir. 2015) (“For purposes of a Title VII discrimination claim by a person
already employed, an adverse employment action is defined in our Circuit as a materially
adverse change in the terms and conditions of employment.”). There is “no bright-line rule to
determine whether a challenged employment action is sufficiently significant to serve as the
basis for a claim of discrimination.” Davis v. N.Y.C. Dep’tofEduc., 804 F.3d 231,235 (2d Cir.
2015) (citing Richardson v. N.Y. State Dep’t of Corr. Serv180 F.3d426,437,446 (2d Cir.
1999), abrogated on other grounds by Burlington N. & Santa FeRy. Co. v. White, 548 U.S. 53
(2006)). “Examples of materially adverse employment actions include termination of
employment, a demotion evidenced by a decrease in wage or salary, a less distinguished title, a
material loss of benefits, significantly diminished material responsibilities, or other indices
unique to a particular situation.” Feingold v. New York, 366 F.3d 138, 152 (2d Cir. 2004)
(alteration, citation, and internal quotation marks omitted); see, e.g., Robinson v. Dibble, 613 F.
App’x 9,12 (2d Cir. 2015) (noting that the plaintiffs termination constituted an “adverse
16

a23

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 17 of 47 PagelD #: 991

employment action”); Levitant v. City ofN. Y. Human Res. Admin., 558 F. App’x 26, 29 (2d Cir.
2014) (“It is well-established that a failure to promote is an adverse employment action.”
(citing Tregelia v. Town ofManlius, 313 F.3d 713, 720 (2d Cir. 2002))); Sanders v. N.Y.C.
Human Resources Admin., 361 F.3d 749, 755 (2d Cir. 2004) (holding that an adverse
employment action includes termination of employment, a demotion evidenced by a decrease in
wage or salary, a less distinguished title, a material loss of benefits, significantly diminished
material responsibilities, or other indices unique to a particular situation.” (citations and internal
quotation marks omitted)). However, conduct that is a “mere inconvenience” does not rise to the
level of an adverse employment action. Parsons v. JPMorgan Chase Bank, N.A., No. 16-CV0408, 2018 WL 4861379, at *7 (E.D.N.Y. Sept. 30, 2018) (quoting Sanders, 361 F.3d at 755).
Courts in this Circuit have repeatedly held that denial of a plaintiff’s request for time off,
absent a complete prohibition, does not rise to the level of an adverse employment action. See
Drouillard v. Sprint/United Management Company, 375 F. Supp. 3d 245, 272 (E.D.N.Y. 2019)
(finding that the plaintiff* s “loss of vacation days is not an adverse employment action”); Porter
v. Donahoe, 962 F. Supp. 2d 491,499 (E.D.N.Y. 2013) (holding that “the rejection of [the
plaintiffs] requests for leave on the terms he demanded[,] either administrative, or leave without
pay... instead of sick leave and annual leave,” did not constitute adverse employment actions);
Weber v. City of New York, 973 F. Supp. 2d 227,252 (E.D.N.Y. 2013) (finding that the denial of
time off is not an adverse employment action); Chukwuka v. City of New York, 795 F. Supp. 2d
256,261 (S.D.N.Y. 2011) (“In general, the denial of vacation time does not generally rise to the
level of an adverse employment action.”); Roffv. Low Surgical & Med. Supply, Inc., No. 03-CV3655,2004 WL 5544995, at *4 (E.D.N.Y. May 11,2004) (“[T]he denial of a single vacation
request, without any indication that there was an absolute prohibition against [the] plaintiff

17

a24

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 18 of 47 PagelD #: 992

taking any vacation time, is not a material adverse employment action.” (citing Boyd v.
Presbyterian Hosp. in the CityofN.Y:, 160 F. Supp. 2d 522,537-38 (S.D.N.Y. 2001))).
Plaintiff argues that Defendant “unnecessarily split [her] time in half to provide special
treatment... for Sedita.” (PI. 56.1

90.) The record indicates that Defendant granted Plaintiffs

request for time off on May 8th and May 9th but denied her request to take time off on May 10,
2015. (Def. Mem. 24.) Defendant’s unwillingness to allow Plaintiff to also take off May 10,
2015 does not rise to the level of an adverse employment action. See Allen v. A.R.E.B.A. Casriel,
Inc.,No. 15-CV-9965,2017 WL 4046127, at *13 (S.D.N.Y. Sept. 12,2017) (finding that
although the “plaintiff complains forcefully about her denied vacation and personal time off,” the
“denials were ‘mere inconvenience^]’ that do not rise to the level of adverse employment
actions” (citing Chukwuka, 795 F. Supp. 2d at 261)).
Accordingly, the Court considers the May 16,2014 Record of Incident and Corrective
Action, February 25,2015 Final Written Warning, March 18, 2015 Final Written Warning, and
June 3,2015 Record of Incident and Corrective Action (the “corrective actions”) and Plaintiffs
termination as adverse employment actions and examines below whether there is an inference of
discrimination as to any of these actions.
2. Inference of discrimination
Inference of discrimination “is a ‘flexible [standard] that can be satisfied differently in
differing factual scenarios.’” Saji v. Nassau Univ. Med. Ctr., 724 F. App’x 11,17 (2d Cir. 2018)
(quoting Chertkova v. Conn. Gen. Life Ins. Co., 92 F.3d 81, 91 (2d Cir. 1996)). “No one
particular type of proof is required to show that Plaintiffs termination occurred under
circumstances giving rise to an inference of discrimination.” Moore v. Kingsbrook Jewish Med.
Ctr., No. ll-CV-3625,2013 WL 3968748, at *6 (E.D.N.Y. July 30, 2013) (citations omitted).

18

a25

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 19 of 47 PagelD #: 993

An inference of discrimination can be drawn from circumstances such as “the employer’s
criticism of the plaintiffs performance in ethnically degrading terms; or its invidious comments
about others in the employee’s protected group; or the more favorable treatment of employees
not in the protected group; or the sequence of events leading to the plaintiffs [adverse
employment action],” Franchino v. Terence Cardinal Cook Health Care Center, Inc., 692 F.
App’x 39,41 (2d Cir. 2017) (citing Littlejohn, 795 F.3d at 312), or by showing that an employer
treated an employee “less favorably than a similarly situated employee outside his protected
group,” Toussaint v. NY Dialysis Services, Inc., 706 F. App’x 44,45 (2d Cir. 2017) (quoting
Graham v. Long Island Rail Road, 230 F.3d 34, 39 (2d Cir. 2000)). Remarks by someone other
than the decision-maker “have little tendency to show that the decision-maker was motived by
the discriminatory sentiment expressed in the remark.” Sloan v. United Techs. Corp., 596 F.
App’x 35, 36 (2d Cir. 2015) (quoting Tomassi v. Insignia Fin. Grp., 478 F.3d 111,115 (2d Cir.
2007)). “In assessing the record to determine whether there is a genuine issue to be tried,” a
court is obliged to “carefully distinguish between evidence that allows for a reasonable inference
of discrimination and evidence that gives rise to mere speculation and conjecture.” Walsh v.
N.Y.C. Hous. Auth., 828 F.3d 70, 87 (2d Cir. 2016) (quotingBickerstajfv. Vassar Coll., 196 F.3d
435,448 (2d Cir. 1999)).
There is no direct evidence to support Plaintiffs claim that the May 16,2014 Record of
Incident and Corrective Action, February 25, 2015 Final Written Warning, March 18, 2015 Final
Written Warning, and June 3, 2015 Record of Incident and Corrective Action or her termination
were racially motivated. To show proof of discrimination as to all adverse actions, Plaintiff
relies on Arzberger’s “unfair” treatment of Plaintiff and Defendant’s favorable treatment of nonAfrican-American employees.

19

a26

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 20 of 47 PagelD #: 994

A. Defendant’s treatment of Plaintiff versus treatment of
non-African-American employees
Plaintiff contends that Arzberger treated her unfairly on the basis of her race and color.
(PI. Aff. in Resp, 4.) In support, Plaintiff argues that Sedita received favorable treatment
“because Sedita was European and Plaintiff was (at that time referred to as African American,
black, colored).” (Id.)
Defendant argues that it terminated Plaintiff for time and attendance issues and “[t]here is
no evidence that any other ORT’s had the same performance issues as Plaintiff did, and even
assuming, arguendo, that they did that they were treated differently than Plaintiff.” (Def. Mem.
13.)
“Mere ‘conclusory allegations or unsubstantiated speculation’ by the plaintiff will not
defeat summary judgment.” DiGirolamo v. MetLife Grp., Inc., 494 F. App’x 120, 121-22 (2d
Cir. 2012) (quoting Scotto v. Almenas, 143 F.3d 105, 114 (2d Cir. 1998)). However, a plaintiff
may raise an inference of discrimination by showing that his employer treated him less favorably
than a similarly situated employee outside his protected group. See Graham, 230 F.3d at 39.
“To raise an inference of discrimination by showing that he was subjected to disparate treatment,
the plaintiff must establish that he was ‘similarly situated in all material respects’ to the
individuals with whom he seeks to compare himself.” Diggs v. Niagara Mohawk Power Corp.,
691 F. App’x 41, 43 (2d Cir. 2017) (quoting Shumway v. United Parcel Serv., Inc., 118 F.3d 60,
64 (2d Cir. 1997)).
(1) Plaintiff has not shown any evidence of unfair
treatment
There is no evidence before the Court that Arzberger treated Plaintiff unfairly because of
her race, color, or national origin. Plaintiff’s only support for her allegation that Arzberger
treated her unfairly is her “firsthand knowledge of how [Arzberger] has treated her” and “the
20

a27

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 21 of 47 PagelD #: 995

lack of consideration [Arzberger]” gave Plaintiff “versus other people.” (Cousar Dep. 287:13—
25.) Plaintiff does not specify any discriminatory treatment of her by Arzberger or lack of
consideration by Arzberger, except as to her denial of Plaintiff s request for leave on May 10,
2015, and points to no evidence to indicate that Arzberger was doing anything other than
enforcing Defendant’s policy of awarding the day off to the most senior employee.10 Nor has
Plaintiff pointed to any evidence in the record showing that Arzberger ever made any derogatory
comments towards her or others regarding Plaintiffs race, color, or ethnicity,11 or called her by
racial names. To the contrary, at her deposition Plaintiff specifically admitted that Arzberger
never did any of these things. (Cousar Dep. 145:7-25-146:1-12.) Plaintiff s speculation and
unsupported belief that Arzberger’s treatment of her was racially motivated are not probative
evidence and are insufficient to support any inference of discrimination. See Ya-Chen Chen v.
City Univ. ofN.Y., 805 F.3d 59, 75 (2d Cir. 2015) (“[E]ven if sincerely held, a plaintiff s
‘feelings and perceptions of being discriminated against’ do not provide a basis on which a
reasonable jury can ground a verdict.”); see Rosario v. Hilton Worldwide, Inc., No. 09-CV-5336,
2011 WL 336394, at *3 (E.D.N.Y. Jan. 24, 2011) (finding that plaintiffs “gut feeling” did not
allow for an inference of discrimination and was not sufficient to defeat a motion for summary
judgment without the support of specific facts supporting the plaintiffs claim of discrimination).

,0 Plaintiff states that her request for time off was a “combination ofpersonal days and
vacation days” and that “Arzberger unnecessarily split Plaintiffs time in half [to] provide for
special treatment” for Sedita. (PI. Aff. in Resp. 4.) Plaintiff acknowledges that Sedita had
“seniority” but argues that “favoritism and prejudice ... existed]... because Sedita was
European and Plaintiff was” black. {Id.)
11 During her deposition, Plaintiff admitted that her prior statement that “[t]he only other
African-American employees with whom Plaintiff regularly worked was also fired” was a false
statement and also admitted that none of Defendant’s employees made comments directed at
Plaintiff s accent. (Cousar Dep. 53:8-24,136:23-137:19.)
21

a28

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 22 of 47 PagelD #: 996

(2) Plaintiff has not shown that Sedita or anyone
else was similarly situated to Plaintiff or that
Defendant treated non-African American
employees more favorably
Plaintiff also fails to present any evidence that her comparators, including Sedita, were
“similarly situated in all material respects” and fails to show that Caucasian co-workers engaged
in comparable conduct and were treated differently. See Shumway, 118 F.3d at 64 (finding that
die plaintiff failed to prove that he was similarly situated after presenting no evidence of similar
infractions by comparators).
In Orlando’s sworn statement in support of Defendant’s motion, he states that Sedita “did
not have any time and attendance related issues for the years 2014 and 2015.” (Def. 56.1186;
Orlando Aff. f 36.) Plaintiff does not dispute this evidence. Indeed, Plaintiff admitted during
her deposition that she did not have any personal knowledge “that anybody was treated
differently than [her] for not showing up for their shift on time.” (Cousar Dep. 288:15-19.) As
to her request to take time off on May 10, 2015, Plaintiff acknowledges that Sedita had
“seniority” over her and that “[sjeniority is granted in the initial selection of vacation time for”
senior personnel. (PI. Aff. in Resp. 3-4; Cousar Dep. 69:9-70:4.)
In opposition to Defendant’s argument that it took corrective actions and terminated
Plaintiff because of her time and attendance issues, Plaintiff challenges Defendant’s contention
that she was required to work until 7:15 AM and argues that Defendant’s claim is based on a
forged and altered contract that changed her end of shift time to 7:15 AM rather than 7:00 AM.
Plaintiff argues that her "contract [was] altered and forged,” that the “7:15AM time is a made up
construct,” and that Defendant “tried to make attendance and performance an issue” in order to
terminate Plaintiffs employment. (PI. Aff. in Resp. 3.)
Contrary to Plaintiffs argument, Plaintiff was an “at-will” employee and had no
22

a29

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 23 of 47 PagelD #: 997

employment contract with Defendant.12 However, even assuming that Plaintiff had a “contract”
that required Plaintiff to work until 7:00 AM rather than 7:15 AM, that contract was modified
orally and in writing. Arzberger “instructed Plaintiff that she needed to work until 7:15 AM for
certain shifts” and Orlando confirmed via email that Plaintiff was required to work until 7:15
AM for the last two shifts of-every week. (Def. 56.1 % 67; Cousar Dep. 36:18-25, 316:7-12.)
Thus, not only did Defendant communicate this work schedule to Plaintiff orally, Defendant
subsequently provided Plaintiff, at her request, with written confirmation “that she was required
to work until 7:15 AM, for the last two shifts of every week.” (Def. 56.1 fflf 75-76; Orlando Aff.

130.)
Despite being notified of the shift hours in writing and having received a final warning
that she would be terminated for any further incidents of unexcused lateness or absences,
Plaintiff was eight minutes late and clocked out thirteen minutes early on June 20, 2015 and was
thirty-one minutes late on June 25, 2015. (Def. 56.1 ^ 78; Orlando Aff. 31.) Defendant
decided to terminate Plaintiff but delayed the termination because of Plaintiff’s injury that day.
(Def. 56.1 If 78.) There is no evidence from which a reasonable jury could infer that
discrimination played any role in the corrective actions or Plaintiffs termination. See Ochoa v.

12 Plaintiff refers to a document titled “Scheduled Hours” as her employment contract
(Scheduled Hours, annexed to Aff. Request for Summ. J. as Ex. 5, Docket Entry No. 59-5.) The
Scheduled Hours form contains Plaintiffs signature and indicates Plaintiffs work hours as 9:00
PM to 7:15 AM. (Id.) Plaintiff contends that Defendant altered her work hours on the
Scheduled Hours form after she had already signed it and without her consent to change her end
of shift time from 7:00 PM to 7:15 PM. (PI. Aff. in Resp. 2 (noting the “unauthorized change of
contract (yes contracts bear signatures of parties in agreement) from 9 [PM] to the 7:15 [AM]
time, a time which Plaintiff did not sign nor consent”).) Upon the Court’s observation of the
Scheduled Hours form, the “9 PM” to “7:15 AM” shift indicated on the Scheduled Hours form
appears in a shade darker than the other writing on the form. (Scheduled Hours.) The Scheduled
Hours form also includes the signature of a witness, although the witness’ name is not legible.
(Id.)
23

a30

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 24 of 47 PagelD#: 998

Fed. Express Corp., No. 16-CV-8729,2018 WL 3996928, at *3 (S.D.N.Y. Aug. 21, 2018)
(finding that the plaintiff* s “unsupported aspersions on the process leading to his termination,
suggesting, for example, that his manager falsely claimed that the decision to fire him came
directly from FedEx’s Chief Executive Office” did not support a conclusion “that FedEx
discriminated against [the plaintiff] on the basis of race or national origin); see also White v.
N.Y.C. Dep’t ofEduc., No. 05-CV-2064,2008 WL 4507614, at *5 (E.D.N.Y. Sept. 30,
2008) (“Title VII is not a civility statute. Title VII solely addresses conduct motivated (a) by
animus towards members of protected class and (b) because of the victim’s protected
characteristics; it does not reach instances of generally poor behavior, personal animosity or
even unfair treatment.” (citation omitted)).
ii.

Legitimate, non-discriminatory reason

Even assuming that Plaintiff could establish a prima facie case of discrimination,
Defendant has proffered a legitimate, non-discriminatory reason for the corrective actions and
Plaintiff*s termination. Defendant’s contend that “Plaintiff’s recurring time and attendance
issues despite counseling and discipline formed the sole basis for the termination of her
employment.” (Def. Mem. 14-15.)
Plaintiff*s excessive lateness and absenteeism serve as a legitimate, nondiscriminatory
reason for her termination. Plaintiff repeatedly arrived to work late and clocked out early. (Def.
56.1

37-79.) On March 18, 2015, Plaintiff received a “Final Written Warning due to her

lateness on January 9,2015; February 11,2015; March 7,2015; March 8, 2015; and March 10,
2015.”13 (Def. 56.1 U 61.) On April 28,2015, Plaintiff “received a Record of Incident and

15 Plaintiff was only one minute late on January 9, 2015, but was twelve minutes late on
February 11, 2015, fourteen minutes late on March 7,2015, seven minutes late on March 8,
24

a31

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 25 of 47 PageiD #: 999

Corrective Action and was suspended for one (1) day for six (6) episodes of coming in to her
shift late or leaving her shift early within one (1) month on March 7, 2015, March 8, 2015, March
10, 2015, March II, 2015, March 26,2015 and March 27, 2015/’ (Def. 56.1 If 66; Cousar Dep,
303:24-304:6; Orlando Aff. ^| 27.) Plaintiff subsequently arrived late to work or left work early.
On June 3, 2015, Plaintiff “received a Record of Incident and Corrective Action and was
suspended for three (3) days for leaving the work area and punching out before the end of her
shifts in May [of] 2015,” (Def. 56.1172; Orlando Aff. % 29.) Plaintiff was also notified that her
June 3,2015 disepline served as a final warning that “any additional incidents of arriving to her
shift late or leaving her shift early without permission would result in the termination of her
employment.” (Def. 56.1 % 73.) Despite the final warning and Plaintiffs knowledge that she
was required to work until 7:15 AM for the last two shifts of every week, (id.

74-76), Plaintiff

clocked in after 9:00 PM and clocked out before 7:15 AM during her shift on June 20,2015, and
arrived late for her 9:00 PM shift on June 25,2015, (id. If 78-79). In light of Plaintiff s time
and attendance issues, and failure to correct her behavior despite several counseling sessions,
Defendant had a legitimate reason to terminate her employment. See Colon v. Fashion Inst, of
Tech. (State Univ. ofN. Y.), 983 F. Supp. 2d 277, 287 (S.D.N.Y. 2013) (finding that tardiness and
absence is a sufficient nondiscriminatory reason for termination).
iii. Plaintiff has not established pretext
Because Defendant has shown a legitimate reason for Plaintiffs corrective actions and
her termination, unless Plaintiff can show that Defendant’s articulated reasons are pretext for
discrimination, Defendant is entitled to summary judgment on Plaintiffs Title VII discrimination

2015, and one hour and ten minutes late on March 10,2015. (Mar. 17,2015 Record of Incident
and Corrective Action; Time Detail.)
25

a32

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 26 of 47 PagelD #: 1000

claim. See Spiegel v. Sckulman, 604 F.3d 72, 80 (2d Cir. 2010) (explaining that if the defendant
proffers a nondiscriminatory reason, the defendant is entitled to summary judgment unless the
plaintiff can show pretext).
A plaintiff may show pretext “by demonstrating weaknesses, implausibilities,
inconsistencies, or contradictions in the employer’s proffered legitimate, [nondiscriminatory]
reasons for its action. From such discrepancies, a reasonable juror could conclude that the
explanations were a pretext for a prohibited reason.” Graziadio v. Culinary Inst ofAm. ,817
F.3d415, 430 (2d Cir. 2016) (quotingZann Kwan v. Andalex Grp. LLC, 737 F.3d 834, 846 (2d
Cir. 2013)); see also Reeves, 530 U.S. at 147 (“Proof that the defendant’s explanation is
unworthy of credence is ... one form of circumstantial evidence that is probative of intentional
discrimination, and it may be quite persuasive.”); Doe v. Bd. ofEduc. ofFallsburgh Cent. Sch.
Dist., 63 F. App’x 46,49—50 (2d Cir. 2003) (“Evidence that could permit a jury to believe that
the defendant’s proffered reasons are not believable can support an inference that they are
pretexts for discrimination.”); Pediford-Aziz v. City of New York, 170 F. Supp. 3d 480,486
(E.D.N.Y. 2016) (“From ... implausibilities, inconsistencies, and contradictions in the
proffered reasons ... one could conclude that... explanations [are] pretext.” (alterations,
citation, and internal quotation marks omitted)).
When making this assessment, courts “are decidedly not interested in the truth of the
allegations against [the] plaintiff’ but rather “are interested in what motivated the employer.”
Toussaint, 706 F. App’x at 45^6 (quoting McPherson v. N. Y. C. Dep ’t ofEduc., 457 F.3d 211,
216 (2d Cir. 2006)); see also Eisner v. Cardozo, 684 F. App’x 29, 31 (2d Cir. 2017) (noting that
the pretext inquiry is “decidedly not interested in the truth of the allegations against [a plaintiff,
but only] in what motivated the employer” (quoting McPherson, 457 F.3d at 216)); Graham, 230

26

a33

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 27 of 47 PagelD #: 1001

F.3d at 44 (holding that the plaintiff could not establish pretext by demonstrating that the results
of a failed drug test were not “actually correct” because “[t]he key question is whether it was
reasonable for the employer to rely on the test result in making its employment decision”);
Hartley v. Rubio, 785 F. Supp. 2d 165, 177 (S.D.N.Y. 2011) (“In determining whether the
articulated reason for the action is a pretext, ‘a fact-finder need not, and indeed should not,
evaluate whether a defendant’s stated purpose is unwise or unreasonable. Rather, the inquiry is
directed toward determining whether the articulated purpose is the actual purpose for the
challenged employment-related action.’” (quoting DeMarco v. Holy Cross High Sch4 F.3d
166,170-71 (2d Cir. 1993))); Koleskinowv. Hudson Valley Hosp. Ctr622 F. Supp. 2d 98,111
(S.D.N.Y. 2009) (“Where a plaintiff has been terminated for misconduct, the question is not
whether the employer reached a correct conclusion in attributing fault [to the plaintiff]..., but
whether the employer made a good-faith business determination.” (internal quotation marks
omitted)); Rodriguez v. City ofNew York, 644 F. Supp. 2d 168, 187-88 (E.D.N.Y. 2008) (“[T]he
fact that an employee disagrees with the results of an employer’s decision regarding termination,
or even has evidence that the decision was objectively incorrect or was based on a faulty
investigation, does not automatically demonstrate, by itself, that the employer’s proffered
reasons are a pretext for termination.”).
The evidence before the Court is that Defendant issued Plaintiff corrective actions that
ultimately culminated in Plaintiffs termination due to time and attendance issues. Even if the
Court were to accept Plaintiffs suggestion that Defendant’s “forged” the “employment contract”
and changed her end of shift time from 7:00 AM to 7:15 AM, Plaintiff does not dispute the other
recorded instances in which she was either absent or late for her shift. Even after being
disciplined and provided with a final warning as to her time and attendance issues, Plaintiff

27

a34

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 28 of 47 PagelD #: 1002

arrived late to her shift on June 25,2015. (Def. 56.1

59-60.) Defendant’s proffered reason

for the corrective actions against Plaintiff and her termination are not pretext, because Plaintiff
failed to comply with Defendant’s policies, even accepting Plaintiff’s argument that she was only
required to work until 7:00 AM. See Ejiogu v. Grand Manor Nursing and Rehabilitation Ctr
No. 15-CV-505, 2017 WL 1184278, at *11 (S.D.N.Y. Mar. 29, 2017) (finding that the
defendant’s proffered reason ofjob abandonment was not pretext because the plaintiff “received
repeated notices from ... superiors that [the plaintiff] was expected to return to work” but failed
to do so); Brown v. The Pension Boards, 488 F. Supp. 2d 395,406 (S.D.N.Y. 2007) (finding that
the defendant’s proffered reason for the plaintiffs termination was not pretext because the
plaintiffs “actions provided a reasonable basis to terminate his employment” (citation omitted)).
The Court therefore grants Defendant’s motion for summary judgment as to Plaintiffs
Title VII discrimination claim.
c.

Title VII retaliation claim

Defendant argues that Plaintiffs allegations and purported evidence do not establish a
prima facie case of retaliation and that the record demonstrates that Defendant disciplined
Plaintiff and terminated her employment for time and attendance issues. (Def. Mem. 16-17.)
Plaintiff argues that Defendant retaliated against her for complaining of discrimination to
Defendant’s Human Resources Department in 2014. (PI. Aff. in Resp. 3.) The Court construes
Plaintiffs allegations as also raising a claim that Defendant retaliated against her for the
February 2015 EEOC Complaint, by issuing the February 25,2015 Final Written Warning and
terminating her employment.
Title VII retaliation claims are also “evaluate[d]... using the three-step framework
outlined in McDonnell Douglas." Russell v. N.Y. Univ.y 739 F. App’x 28, 32 (2d Cir. 2018)

28

a35

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 29 of 47 PagelD #: 1003

(citing Duplan v. City of New York, 888 F.3d 612, 625 (2d Cir. 2018)). Under the framework,
the plaintiff must first establish “a primafacie case of retaliation.” Id. (quoting Hicks v. Baines,
593 F.3d 159, 164 (2d Cir. 2010)). If the plaintiff sustains this initial “de miminis” burden,
Duplan, 888 F.3d at 626, a “presumption of retaliation” arises and the defendant must “articulate
a legitimate, non-retaliatory reason for the adverse employment action,” Saji, 724 F. App’x at 14
(quoting Hicks, 593 F.3d at 164). “If the defendant does so, then the burden shifts back to the
plaintiff... [to] show that the reason offered by the employer is merely pretext, and that the
employer’s ‘desire to retaliate’ was the actual *but-for cause of the challenged employment
action.’” Id. (quoting Ya-Chen Chen v. City Univ. ofN.Y., 805 F.3d 59, 70 (2d Cir. 2015)).
“‘But-for’ causation does not, however, require proof that retaliation was the only cause of the
employer’s action, but only that the adverse action would not have occurred in the absence of the
retaliatory motive.” Duplan, 888 F.3d at 625 (quoting Vega, 801 F.3d at 90-91).
i.

Prima facie case

To establish a prima facie case of retaliation, a plaintiff must show: “(1) participation in a
protected activity; (2) that the defendant knew of the protected activity; (3) an adverse
employment action; and (4) a causal connection between the protected activity and the adverse
employment action.” Id. (quoting Jure v. Hamilton Sundstrand Corp420 F.3d 166, 173 (2d
Cir. 2005)).
Defendant concedes that the corrective actions against Plaintiff and her termination are
adverse actions but argues that there “is no record evidence to establish the first, second, and
fourth elements of Plaintiff s prima facie case of retaliation.” (Def. Mem. 17.)
Plaintiff argues that “Defendant[] retaliated ... by forgery for [sic] an employment
agreement and/or contract without Plaintiffs consent....” (PI. Aff. in Resp. 3.) In addition,

29

a36

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 30 of 47 PagelD #: 1004

Plaintiff argues that Defendant retaliated against her for filing a discrimination complaint with
HR by terminating her employment (Id.)
1.

Protected activity and Defendant’s knowledge

Filing either a formal or informal complaint challenging discrimination is a protected
activity for purposes of retaliation claims under Title VII. See Jagmohan v. Long Island R. Co.,
622 F. App’x 61,63 (2d Cir. 2015); Summa v. Hofstra Univ., 708 F.3d 115, 126 (2d Cir. 2013).
“A complaint of discrimination constitutes ‘protected activity’ only if (1) the plaintiff holds a
good-faith belief that he suffered discrimination because of a protected characteristic and (2) that
belief is reasonable.” Jagmohan, 622 F. App’x at 64—65 (citing Galdieri—Ambrosini v. Nat'l
Realty & Dev. Corp., 136 F.3d 276,292 (2d Cir. 1998)); Summa, 708 F.3d at 126 (holding that
Title VII “protects employees [who]... make[] informal protests of discrimination, including
making complaints to management, so long as the employee has a good faith, reasonable belief
that the underlying challenged actions of the employer violated the law” (alterations in original)
(quoting Gregory v. Daly, 243 F.3d 687, 700 (2d Cir. 2001))).
In June of 2014, Plaintiff complained to HR about Arzberger’s unfair treatment, which
Plaintiff communicated to Defendant was based on Plaintiffs race. (June 2014 Email.)
In February of 2015, Plaintiff filed a complaint with the EEOC alleging race and
disability discrimination, and Defendant received notice of Plaintiff s EEOC charge on February
11,2015. (Def.Mem. 18 n.20; February 2015 EEOC Compl.)
Plaintiff amended her February 2015 EEOC Complaint on April 24,2015, to raise a
claim of retaliation. (April 2015 EEOC Compl.) Although it is unclear when Defendant
received notice, Defendant does not contest that it received notice of the April 2015 EEOC
Complaint. (See Email from EEOC Staff Mediator David L. Reinman dated May 14, 2015,

30

a37

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 31 of 47 Page!D #: 1005

annexed to PI. Aff. in Resp./Rebuttal, Docket Entry No. 52.)
Plaintiffs June 2014 Email, February 2015 EEOC Complaint, and April 2015 EEOC
Complaint constitute protected activity for purposes of Plaintiffs Title VII retaliation claim.
2.

Causal connection

Defendant argues that Plaintiff fails to show an inference of retaliation because
Defendant’s discipline “began before she raised a complaint of discrimination.” (Def. Mem. 18.)
Construing Plaintiffs allegations to raise the strongest argument they suggest, Plaintiff
appears to rely on temporal proximity between her protected activity and adverse employment
actions. {See Feb. 2015 EEOC Compl. (“Respondent received EEOC’ Notice of my Charge.
Shortly thereafter, Respondent retaliated against me on [February 25, 2015], when I was issued a
final written warning for a time and attendance issue that occurred on [January 16, 2015].”).)
A causal connection between the protected activity and the adverse action can be shown
either “(1) indirectly, by showing that the protected activity was followed closely by
discriminatory treatment, or through other circumstantial evidence such as disparate treatment of
fellow employees who engaged in similar conduct; or (2) directly, through evidence of
retaliatory actions directed against the plaintiff by the defendant.” Littlejohn, 795 F.3d at 307,
319 (quoting Gordon v. N.Y.C. Bd. o/Educ., 232 F.3d 111, 117 (2d Cir. 2000)). “Direct
evidence may... include evidence of discriminatory statements or actions by employees who,
while not the ultimate decisionmakers, have ‘enormous influence in the decision-making
process.”’ Emmanuel v. Cushman & Wakefield, Inc., No. 13-CV-2894,2015 WL 5036970, at *4
(S.D.N.Y. Aug. 26, 2015) (quoting Rose v. N.Y.C. Bd. o/Educ., 257 F.3d 156, 162 (2d Cir.
2001)). Indirect evidence may include a “showing that the protected activity was closely
followed in time by the adverse action.” Colon v. Fashion Inst of Tech., 983 F. Supp. 2d 277,

31

a38

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 32 of 47 PagelD #: 1006

287 (S.D.N.Y. 2013) (quoting Manoharan v. Columbia Univ. Coll, ofPhysicians & Surgeons,
842 F.2d 590, 593 (2d Cir. 1988)); see also. e.g., Feingold v. New York, 366 F.3d 138, 156-57
(2d Cir. 2004) (“[T]he requirement that [the plaintiff] show a causal connection between his
complaints and his termination is satisfied by the temporal proximity between the two.”
(collecting cases)); Nonnenniann v. City ofNew York, No. 02-CV-10131,2004 WL 1119648, at
*22 (S.D.N.Y. May 20,2004) (“Causation can be established either indirectly by means of
circumstantial evidence, for example, by showing that the protected activity was followed by
adverse treatment in employment, or directly by evidence of retaliatory animus.” (quoting Morris
v. Lindau, 196 F.3d 102, 110 (2d Cir. 1999))).
However, “[w]here timing is the only basis for a claim of retaliation, and gradual adverse
job actions began well before the plaintiff had ever engaged in any protected activity, an
inference of retaliation does not arise.” Chung v. City Univ. of New York, 605 F. App’x 20,23
(2d Cir. 2015) (quoting Slattery, 248 F.3d at 95); see also Lue v. JPMorgan Chase & Co., 768 F.
App’x 7, 10—11 (2d Cir. 2019) (affirming the district court’s grant of summary judgment as to
the plaintiff’s Title VII retaliation claim where the record showed that “defendants’ criticisms of
[the plaintiff* s] communication style and her response to feedback predated her complaints of
discrimination” and there was no other “evidence of an intent to retaliate”); Martinez v. Davis
Polk & Wardwell, 713 F. App’x 53, 57 (2d Cir. 2017) (finding that the plaintiff failed to show an
inference of retaliation under Title VII where the plaintiff “began receiving performance reviews
that noted her struggles with time and project management as early as ... three years before [the
plaintiffs] filing of the EEOC charges” because “[u]nder these circumstances, a reasonable jury
could not conclude that [the defendant’s] treatment of [the plaintiff] in the wake of her EEOC
filing ... was retaliatory as opposed to the culmination of‘gradual adverse job actions’ that

32

a39

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 33 of 47 PagelD #: 1007

began three years prior to the alleged retaliatory event” ); EUiot-Leach v. N.Y.C. Dept. ofEduc.,
710 F. App’x 449,452 (2d Cir. 2017) (“Because [the plaintiff] had been disciplined for work
absences before she requested FMLA leave, and because she relies only on temporal proximity
to suggest retaliatory intent, her retaliation claim fails.”); Sotomayor v. N.Y.C., 713 F.3d 163, 164
(2d Cir. 2013) (finding no prima facie case of FMLA retaliation where the plaintiff began
receiving negative evaluations in her disciplinary file before her application for FMLA leave);
Powell v. Merrick Academy Charter Sch., No. 16-CV-5315,2018 WL 1135551, at *10
(E.D.N.Y. Feb. 28,2018) (finding no inference of retaliation where the complaint made
“extensive allegations that both (1) suggest an obvious alternative explanation for the decision to
fire her and (2) make clear that Plaintiff was subject to disciplinary action and demonstrably at
risk of losing her job before she engaged in any identifiable protected activity”); Catanzaro v.
City ofNew York,, No. 10-CV-1825,2011 WL 335648, at *7 (S.D.N.Y. Jan. 25, 2011) (finding
that the plaintiff cannot rely solely on temporal proximity to raise inference of retaliation where
he was “demonstrably at risk” of adverse action prior to engaging in the protected activity).
Defendant acknowledges that it received Plaintiffs February 2015 EEOC Complaint on
February 11, 2015, (Def. Mem. 18 n.20), issued Plaintiff a Final Written Warning on February
25, 2015 because of her absence ffom work on January 16, 2015, and a Final Written Warning
on March 18, 2015. Thus, there is temporal proximity between Plaintiffs February 2015 EEOC
Complaint and the February of 2015 and March of 2015 Final Written Warnings.14

14 While Plaintiff s June 2014 Email to HR constitutes protected activity, there is no
adverse action that followed close in time to the protected activity. The closest adverse action
occurred in February of 2015. {See Feb. 2015 Final Written Warning.) The approximately
eight-month gap between the June of 2014 protected activity and the February 2015 Final
Written Warning, without more, does not allow for an inference of retaliation. See Tuccio Dev.,
Inc. v. Miller, 423 F. App’x 26,28 (2d Cir. 2011) (finding two-month gap between protected
activity and alleged adverse action was too distant to indirectly support retaliatory motive where
33

a40

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 34 of 47 PagelD #: 1008

However, because Defendant began disciplining Plaintiff for time and attendance issues
in 2012, approximately two years before Plaintiff filed her first complaint of discrimination with
HR in June of 2014, Plaintiff cannot rely on temporal proximity alone to establish an inference
of retaliation. In October of 2012, Plaintiff was disciplined for excessive sick time. (Def. 56.1
1f 38; Orlando Aff. ^ 16.) On April 2,2014, Plaintiff was verbally counseled for being absent
from her shift on March 28,2014. (Orlando Aff. f 18.) In addition, on May 16, 2014, Plaintiff
received a “Record of Incident and Corrective Action” and a one (1) day suspension for being a
“no call/no show” for her absence from work on April 20, 2014. (Def. 56.1 ^ 48; Cousar Dep.
240:7—25.) On May 29, 2014, Defendant verbally counseled Plaintiff for excessive sick time
from April 30,2014 to May 3,2014. (Def. 56.1 f 50.) Because all of these time and attendance
corrective actions took place prior to Plaintiff engaging in any protected activity — the June
2014 Email to HR alleging discrimination — Plaintiff has not shown any inference of retaliation
in connection with the February of 2015 Final Warning or March of 2015 Final Written
Warning.
Further, Plaintiff fails to demonstrate an inference of retaliation as to her termination
because her termination was the product of corrective actions against her for time and attendance
issues that began before Plaintiff filed her February of 2015 EEOC Complaint. See Slattery, 248
F.3d at 95 (holding that the plaintiff failed to demonstrate a prima facie case of retaliation where
there was a close temporal proximity between the complaint and adverse employment action but
“the adverse employment actions were both part, and the ultimate product, of ‘an extensive
period of progressive discipline’ which began when [the defendant] diminished [the plaintiffs]

no additional causation evidence was introduced); Dechberry v. N. Y. C. Fire Dep ’t, 124 F. Supp.
3d 131, 153—55 (E.D.N.Y. 2015) (finding six-month gap too attenuated).
34

a41

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 35 of 47 PagelD#: 1009

job responsibilities a full five months prior to his filing of the EEOC charges”); Spadola v.
N. Y.C. Transit Auth., 242 F. Supp. 2d 284,294-95 (S.D.N.Y. 2003) (stating that an employer is
“not obligated to automatically cease or abandon an ongoing internal disciplinary procedure
merely because an employee files a charge alleging discrimination”).
Moreover, even if Plaintiff could establish a prima facie case of retaliation, Plaintiff’s
claim nevertheless fails at the pretext stage because there is no evidence rebutting Defendant’s
legitimate business reasons for her termination — Plaintiff’s time and attendance issues and the
progressive discipline related thereto — and Plaintiff cannot rely on temporal proximity alone to
demonstrate retaliatory animus. See Borzon v. Green, 2019 WL 2754960, — F. App’x —, —
(2d Cir. July 2,2019) (finding that the temporary proximity between the plaintiffs termination
and “his lodging of the complaint, without more, cannot sustain” a finding of retaliatory animus).
The Court therefore grants Defendant’s summary judgment motion as to Plaintiffs Title
VII retaliation claim.
d.

Title VII hostile work environment claim

Construing Plaintiff s allegations liberally, the Court evaluates whether there is any
evidence that Arzberger’s treatment of Plaintiff created a hostile work environment.
Defendant argues that there “is absolutely no record evidence” to support a hostile work
environment claim. (Def. Mem. 23.)
“[T]o establish a hostile work environment claim under Title VII, a plaintiff must
produce enough evidence to show that ‘the workplace [was] permeated with discriminatory
intimidation, ridicule, and insult, that [was] sufficiently severe or pervasive to alter the
conditions of die victim’s employment and create an abusive working environment.’” Tillery,
739 F. App’x at 27 (quoting Gorzynski v. JetBlue Airways Corp596 F.3d 93, 102 (2d Cir.

35

a42

Case 1:16-CV“01784-MKB-LB Document 104 Filed 08/26/19 Page 36 of 47 PagelD#: 1010

2010)); see also Boonmalert v. City of New York, 721 F. App’x 29, 33 (2d Cir. 2018) (holding
conduct must be both objectively severe or pervasive and subjectively perceived to be abusive).
Under the totality of the circumstances, a plaintiff must show “either that a single incident was
extraordinarily severe, or that a series of incidents were sufficiently continuous and concerted to
have altered the conditions of her working environment.” Desardouin v. City ofRochester, 708
F.3d 102, 105 (2d Cir. 2013) (quoting Cruz v. Coach Stores, Inc., 202 F.3d 560, 570 (2d Cir.
2000)) (internal quotation marks omitted); Littlejohn, 795 F.3d at 321 (“[W]e must consider...
‘the frequency of the discriminatory conduct; its severity; whether it is physically threatening or
humiliating, or a mere offensive utterance; and whether it unreasonably interferes with an
employee’s work performance.’” (quoting Harris v. Forklift Sys., Inc., 510 U.S. 17,23 (1993))).
“A plaintiff must also demonstrate that she was subjected to the hostility because of her
membership in a protected class.” Tillery, 739 F. App’x at 27 (quoting Brennan v. Metro Opera
Assn,Inc., 192 F.3d 310, 318 (2d Cir. 1999)).
Plaintiff alleges that she was subject to a hostile work environment but provides neither
specific factual allegations nor any evidence to support a hostile work environment claim.15
Nevertheless, construing Plaintiffs challenges to her repeated discipline for time and attendance
issues as the basis for her hostile work environment claim, the claim fails because Plaintiff does
not provide any evidence that the corrective actions were objectively severe or pervasive, or that
she was subject to discipline because of her race, color, ethnicity or her membership in any other
protected class. As discussed above, there is no evidence to show that the corrective actions

15 Plaintiff alleges that she was “subject to a hostile work environment that was
categorized by persistent outrageous and baseless allegations of misconduct, not merely once or
twice but repeatedly.” (Compl. 37.) Plaintiff, however, has not produced any evidence of the
“outrageous and baseless allegations of misconduct” alleged in her original Complaint.
36

a43

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 37 of 47 PagelD #: 1011

taken over the span of Plaintiffs employment were due to race or color but rather as a result of
Plaintiff s failure to comply with, inter alia, Defendant’s Time and Attendance Policy and Sick
Leave Policy. See Fox v. Costco Wholesale Corp. ,918 F.3d 65, 75 (2d Cir. 2019) (“Legitimate
reprimands by an employer are not abuse.”). Viewing all the evidence in the light most
favorable to Plaintiff, and considering the totality of the circumstances, the Court finds that no
reasonable juror would perceive Plaintiffs workplace to be permeated with discriminatorilymotivated actions that were sufficiently severe or pervasive to alter the conditions of her work
environment. See Duplan v. City of New York, 888 F.3d 612, 627 (2d Cir. 2018) (finding that the
plaintiff s allegations that he was retaliated against for making two complaints was suspended
without pay for ten days were insufficient to meet the “high bar” required to state a claim for a
hostile work environment); Harrison, 2018 WL 4055278, at *11-12 (dismissing hostile work
environment claims where the plaintiff “complainfed] of five extremely unpleasant interactions”
and uncertainty about requested sick leave “over the course of several weeks”); Johnson v. Conn.
Dept ofAdmin. Servs. Bureau ofEnter. Sys. & Tech., No. 17-CV-901,2018 WL 306697, at *8
(D. Conn. Jan. 5, 2018) (finding that the plaintiffs allegations that a defendant “cited [the]
plaintiff for an unauthorized absence, gave him a negative evaluation, and denied him
mentoring,” did not “rise to the level of severe or pervasive and cannot be said to have altered
the conditions of [the] plaintiff s employment for the worse”); Guy v. MTA N. Y. C. Transit, No.
15-CV-2017,2016 WL 8711080, at *8 (E.D.N.Y. Sept. 23, 2016) (dismissing hostile work
environment claims where the plaintiff “simply identifies a series of incidents in his complaint/*
but “fails to allege any facts that would show that the conduct of which he complains is
objectively severe and pervasive”).
Accordingly, the Court grants Defendant’s motion for summary judgment as to Plaintiffs

37

a44

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 38 of 47 PagetD #: 1012

hostile work environment claim.
e.

ADA claim

Plaintiff appears to argue that she had a disability and Defendant either failed to
accommodate her disability or unlawfully terminated her employment because of her disability.
Defendant does not dispute that it is subject to the ADA, that Plaintiff was qualified to
perform the essential functions of the job with or without reasonable accommodation, or that
Plaintiff’s termination was an adverse employment action. (Def. Mem. 20-22.) Defendant
argues that because Plaintiff explicitly did not inform it of her disability, and because her foot
injury is not a disability under the ADA, Plaintiff fails to establish an ADA claim. (Id. at 22.)
Claims of employment discrimination under the ADA are assessed using the burdenshifting framework established by the Supreme Court in McDonnell Douglas Corp. ,411 U.S.
792. See Sista, 445 F.3d at 169. Under the framework, a plaintiff must first establish a prima
facie case of discrimination. St. Mary’s Honor Ctr509 U.S. at 506; see also Ruiz, 609 F.3d at
491. A plaintiff’s burden at this stage is “minimal,” Holcomb, 521 F.3d at 139 (quoting Hicks,
509 U.S. at 506). If the plaintiff satisfies this initial burden, the burden then shifts to the
defendant to articulate a legitimate, nondiscriminatory reason for its actions. Hicks, 509 U.S. at
506-07; Ruiz, 609 F.3d at 492. The defendant’s burden “is not a particularly steep hurdle.”
Hyek v. Field Support Servs., 702 F. Supp. 2d 84,93 (E.D.N.Y. 2010), affd, 461 F. App’x 59
(2d Cir. 2012). It “is one of production, not persuasion; it ‘can involve no credibility
assessment.’” Reeves, 530 U.S. at 142 (quoting Hicks, 509 U.S. at 509). If the defendant offers
a legitimate, nondiscriminatory explanation for its action, the court must nevertheless deny
summary judgment if the plaintiff can show that the explanation was pretext.
To establish a prima facie case of discrimination under the ADA, a plaintiff must show

38

a45

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 39 of 47 PagelD #: 1013

that “(1) the employer is subject to the ADA; (2) the plaintiff is disabled within the meaning of
the ADA or perceived to be so by her employer; (3) she was otherwise qualified to perform the
essential functions of the job with or without reasonable accommodation; (4) she suffered an
adverse employment action; and (5) the adverse action was imposed because of her
disability” Davis v. N.Y.C. Dep’tofEduc., 804 F.3d231,235 (2d Cir. 2015).
There is no evidence in the record from which a reasonable jury could infer that
Defendant had notice that Plaintiff suffered from any disability. A plaintiff must “adduce
evidence raising a material issue of fact regarding [the] defendant’s knowledge of her disability.”
Volmarv. Cold Spring Hills Ctr. for Nursing & Rehab., 395 F. App’x 795, 796 (2d Cir. 2010).
“The notice requirement is rooted in common sense. Obviously, an employer who acts or fails to
act without knowledge of a disability cannot be said to have discriminated based on that
disability.” Brady v. Wal-Mart Stores, Inc., 531 F.3d 127, 135 (2d Cir. 2008) (quoting Felix v.
N.Y.C. Transit Auth., 154 F. Supp. 2d 640, 657 (S.D.N.Y. 2001)); see also Raytheon Co. v.
Hernandez, 540 U.S. 44, 54 n.7 (2003) (noting the impossibility of an employer basing an
adverse employment decision on disability if it were “truly unaware that such a disability
existed”); McCoy v. Momingside at Home, No. 1 l-CV-2575,2014 WL 737364, at *4 (S.D.N.Y.
Feb. 25,2014) (“[C]ausation [ ] necessarily incorporates an inquiry as to whether
the employer had notice of the plaintiffs disability.”), affd, 601 F. App’x 57 (2d Cir. 2015).
Plaintiff testified during her deposition that she suffered from PTSD, but admitted that
she did not tell Arzberger or anyone in HR about her PTSD because she was “not required to
divulge [her] disability.” (CousarDep. 152:19-21, 153:6-12.) When asked whether Plaintiff
needed “any assistance in doing [her] job,” Plaintiff testified “absolutely not.” (Cousar Dep.

39

a46

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 40 of 47 PagelD #: 1014

153:13-17.) Plaintiff argues that because Defendant possessed Plaintiff’s “DD Form 214,”16 —
which according to Plaintiff, notified Defendant that Plaintiff is a war veteran — Defendant was
on notice that she suffered from a disability. However, Defendant’s knowledge that Plaintiff is a
war veteran is insufficient to put Defendant on notice that Plaintiff suffers from a disability.17
See McCoy, 2014 WL 737364, at *4 (“An employer’s awareness that a plaintiff suffered some
injury does not establish that an employer had notice that the plaintiff was disabled.”).
Because there is no evidence in the record to suggest that Plaintiff informed Defendant of
any disability, much less that Defendant terminated Plaintiff because of any disability, the Court
grants Defendant’s motion for summary judgment as to Plaintiff’s ADA discrimination claim.18

16 There is no information in the record as to the contents of “DD Form 214.” Plaintiff
only alleges that Defendant “maintained a copy” of the form, “no doubt for ‘hiring benefits’ for
Veterans.” (PL Aff. in Resp. 3.)
17 As to Plaintiff s foot injury on June 26,2015, Plaintiff has not shown that it rendered
her disabled. Plaintiff alleges that her “foot was injured by a metal cart full of surgical
instrumentation as she was setting up for a patient.” (Comp!, f 28.) A letter from Dr. Idit R.
Forkosh dated June 29,2015, indicates that Plaintiff was being treated for “a contusion of the
right foot.” (Letter from Dr. Forkosh dated June 29,2015, annexed to PI. Aff. in Resp./Rebuttal
as Ex. 3, Docket Entry No. 52.) Plaintiff “advised she would be out of work for a period of
time” and returned on August 20, 2015. (Orlando Aff. f 33.) Construing Plaintiffs allegations
about her foot injury on June 26, 2015 to raise an ADA discrimination claim, there is insufficient
evidence in the record from which a jury could draw any inference that her foot injury rendered
her disabled. See Kruger v. Hamilton Manor Nursing Home, 10 F. Supp. 3d 385, 388 (W.D.N.Y.
2014) (“[Bjroken and fractured bones do not generally qualify as a disability within the meaning
of the ADA.”) Guaryv. Upstate Nat’l Bank, 618 F. Supp. 2d 272, 275 (W.D.N.Y. 2009) (finding
that plaintiff s broken ankle, “which resulted in a single, twelve-week disability leave with no
alleged physical limitations thereafter, is not a disability for purposes of the ADA”). Moreover,
assuming that Plaintiffs foot injury rendered her disabled under the ADA, the evidence in the
record demonstrates that the decision to terminate Plaintiffs employment was made prior to her
foot injury on June 26,2015, for time and attendance issues, and was only delayed as a result of
Plaintiffs injury that day.
18 Plaintiff contends that stress induced by Arzberger required her to take time off and
that Defendant did not provide “an alternative work environment.” (PI. Aff. in Resp. 3.) To the
extent Plaintiff asserts an ADA failure to accommodate claim, the claim fails. A plaintiff states
a primafacie failure to accommodate claim by alleging that: "(1) plaintiff is a person with
40

a47

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 41 of 47 PagelD #: 1015

See Fox, 918 F.3d at 73 (affirming the district court’s dismissal of the plaintiffs reasonable
accommodation claim where the plaintiff “never asked for an accommodation” because the
plaintiff could not identify “a reasonable accommodation that [the defendant] refused to
provide”); Vitti v. Macy's Inc., 758 F. App’x 153, 158 (2dCir. 2018) (finding that the plaintiff
“fail[ed] to establish denial of a reasonable accommodation because she never requested one”).
f.

Breach of contract claim

Defendant argues that Plaintiffs breach of contract claim must be dismissed because
Plaintiff is an at-will employee. (Def. Mem. 25.)
Plaintiff contends that Defendant altered her contract without her consent by changing
her work hours from 9:00 PM to 7:00 AM, to 9:00 PM to 7:15 AM. (PI. Aff. in Resp. 2-3.)
In order to assert a claim for breach of contract under New York law,,y the plaintiff must
allege “(i) the formation of a contract between the parties; (ii) performance by the plaintiff; (iii)
failure of the defendant to perform; and (iv) damages.” Orchard Hill Master Fund Ltd. v. SBA

a disability under the meaning of the ADA; (2) an employer covered by the statute had notice of
his disability; (3) with reasonable accommodation, plaintiff could perform the essential functions
of the job at issue; and (4) the employer has refused to make such accommodations.” McBride v.
BIC Consumer Prods. Mfg. Co., 583 F.3d 92,97 (2d Cir. 2009) (quoting Graves v. Finch Pruyn
& Co., Inc., 457 F.3d 181,184 (2d Cir. 2006)); see also Foxv. Costco Wholesale Corp., 918
F.3d 65, 73 (2d Cir. 2019) (same). As discussed above, Plaintiff testified during her deposition
that she did not tell Arzberger or anyone in HR about her PTSD because she was “not required to
divulge [her] disability.” (Cousar Dep. 152:19-21, 153:6-12.) Plaintiff also testified that she
did not need any assistance in doing her job. (Cousar Dep. 153:13-17.) Moreover, Plaintiff has
not presented any evidence that she requested any accommodation or that Defendant refused to
provide a reasonable accommodation. Accordingly, Plaintiff fails to demonstrate a prima facie
failure to accommodate claim.
19 Because all of the conduct at issue occurred in New York, the Court assumes that New
York law governs the dispute. See Vacold LLC v. Cerami, 545 F.3d 114, 122-23 (2d Cir. 2008)
(holding that New York law applies where a substantial amount of the conduct at issue
underlying the contract-formation dispute occurred in New York and the defendant raised no
objection to the application of New York law).
41

a48

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 42 of 47 PagelD #: 1016

Commc *ns Corp., 830 F.3d 152, 156 (2d Cir. 2016) (internal quotation marks and citation
omitted); Hudson & Broad, Inc. v. J.C. Penny Corp., Inc., 553 F. App’x 37, 39 (2d. Cir. 2014)
(same). “Under New York law, ‘employment for an indefinite or unspecified term is presumed
to be at will and freely terminable by either party at any time without cause or notice.’” Brown
v. Daikin Am. Inc., 756 F.3d 219,231 (2d Cir. 2014) (quoting Reddington v. State Island Univ.
Hosp., 511 F.3d 126, 137 (2d Cir. 2007)).
Plaintiff fails to establish that the Scheduled Hours form is an employment contract.
Plaintiff contends that the Scheduled Hours form is a contract that required her to only work until
7:00 AM but was illegally changed to suggest that she was required to work until 7:15 AM,
thereby breaching her contract. However, Plaintiff also testified during her deposition that at
some time during the beginning of her employment, she was ‘‘told that [she] needed to clock out
at 7:15 [AM]” and was later told that “the schedule reflects those particular days that [she is]
supposed to do 7:15 [AM].” (CousarDep. 36:18-25.) Moreover, the evidence before the Court
establishes that the Scheduled Hours form is only an agreement setting out the terms of her
employment, including her salary and working hours. The form indicated Plaintiffs work hours
as requiring her to work until 7:15 AM. (Scheduled Hours.) The Scheduled Hours form also
includes the following language: “I understand and agree with the above scheduled hours. Offer
is contingent upon satisfactory EHS,20 reference and background checks and Primary Source
Verification. Flex time is [thirteen] shifts in a [four] week period. T have reviewed and
understand my job description.” (Id.) In addition, the form indicates that it is to be completed
by the “Nurse Manager or designee and electronically forwarded to Nurse Recruitment.” (Id.)
The Scheduled Hours form also includes a separate section to be completed by “nurse
20 The record does not define “EHS.”
42

a49

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 43 of 47 PagelD #: 1017

recruitment,” that indicates Plaintiffs salary as “$34,547,” [differential ” benefits, and
probationary period.21 (Id.) The Scheduled Hours form also includes the signature of a witness,
although the name is ineligible. (Id.) The Scheduled Hours form does not specify the length of
Plaintiff s employment (See generally id.).
Contraiy to Plaintiffs argument that the Scheduled Hours form is an employment
contract, the evidence in the record establishes that Plaintiff was an at-will employee. Plaintiffs
signed employment application specifically states, “I further understand that if 1 am employed, it
is at-will subject to this institution’s right to change or terminate my employment at any time.”
(Employment Application.) “Case law dictates that when parties have an employment contract
terminable at will, the contract can be modified and different compensation rates fixed without
approval of the other party since the dissatisfied party has a right to leave his
employment.” Gen. Elec. Tech. Servs. Co. v. Clinton, 577 N.Y.S.2d 719, 720-21 (App. Div.
1991); see Kronickv. L.P. Thebault Co., 892 N.Y.S.2d 895 (App. Div. 2010); see also Arakelian
v. Omnicare, Inc., 735 F. Supp. 2d 22,32—33 (S.D.N.Y. 2010) (“If an employer changes the
terms of its employee’s at-will employment contract ‘and the employee chooses to remain in the
employer’s employ after being advised of that change, the employee is deemed to have
acquiesced to the new terms of employment and cannot later claim compensation based on the
terms of the original contract.’” (quoting In reFootstar, Inc., No. 04-CV-22350, 2007 WL
1989290, at *5 (Bankr. S.D.N.Y. July 6, 2007))). Even assuming Plaintiffs Scheduled Hours
form originally indicated that Plaintiffs shift was from 9:00 PM to 7:00 AM, Plaintiff was
informed by telephone and in writing that she was required to remain on the job until 7:15 AM,
and Plaintiff chose to remain employed by Defendant. Because Plaintiff chose to remain

21 The Scheduled Hours form includes additional writing that is not legible.
43

a50

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 44 of 47 PagelD #: 1018

employed with Defendant after being advised of the purported change in her work hours,
Plaintiff cannot now assert a breach of contract claim for the change in work hours.
Lastly, because Plaintiff’s employment was at-will, Defendant was entitled to terminate
Plaintiffs employment “at any time without cause or notice.” Reddington, 511 F.3d at 137; see
also Langenkamp v. Olson, 628 F. App’x 50, 51-52 (2d Cir. 2015) (finding that the plaintiffs
employment was at will and freely terminable where the plaintiff relied on his offer letter
promising a certain annual salary); Brown, 756 F.3d at 231-32 (finding that the plaintiffs
employment relationship with his employer was not “anything other than at will” where the
plaintiffs “employment was not governed by a written contract” and the defendant’s
reassurances that the plaintiff would not be terminated for financial reasons was insufficient to
establish an implied contract).
The Court therefore grants Defendant’s motion and dismisses Plaintiffs breach of
contract claim.
g.

Motion for leave to file a second amended complaint

Plaintiff moves for leave to file a Second Amended Complaint (“Proposed SAC”), to add
a cause of action under 42 U.S.C. § 1981 and to add claims against Arzberger, Orlando, Kristin
Friedl, Steve Ritchie, Seditas, and Jane and John Does. (PI. Affm 1; Proposed SAC, Docket
Entry No. 77-1.) Plaintiff further requests that she be allowed to conduct discovery in light of
the additional, “indispensable parties.” (PI, Mem. 3.)
Defendant argues that Plaintiff s proposed amendment is untimely, unfairly prejudicial,
and made in bad faith. (Def. Opp’n 6-8.) Further, Defendant argues that the proposed additional
defendants are not indispensable parties, that Plaintiff has had “ample opportunity” to complete
discovery, and that further discovery would cause unfair delay and prejudice to Defendant. {Id.

44

a51

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 45 of 47 PagelD #: 1019

at 12-14.)
Rule 15 of the Federal Rules of Civil Procedure provides that courts “should freely give
leave” to amend a complaint “when justice so requires.” Fed. R. Civ. P. 15(a)(2). The Second
Circuit has stated that “[tjhis permissive standard is consistent with our strong preference for
resolving disputes on the merits.” Williams v. Citigroup Inc., 659 F.3d 208, 212-13 (2d Cir.
2011) (citation omitted). Leave to amend should be given “absent evidence of undue delay, bad
faith or dilatory motive on the part of the movant, undue prejudice to the opposing party, or
futility.” Monahan v. N.Y.C. Dep't ofCorr., 214 F.3d 275, 283 (2d Cir. 2000); see also Couloute
v. Ryncarz, No. 1 l-CV-5986, 2012 WL 541089, at *3 (S.D.N.Y. Feb. 17, 2012) (quoting
Monahan, 214 F.3d at 283). However, motions to amend “should generally be denied in
instances of futility, undue delay, bad faith or dilatory motive, repeated failure to cure
deficiencies by amendments previously allowed, or undue prejudice to the non-moving party.”
Burch v. Pioneer Credit Recovery, Inc., 551 F.3d 122, 126 (2d Cir. 2008); Monahan, 214 F.3d at
283.
“Although ‘a court should freely give leave to amend where justice so requires,’ Fed. R.
Civ. P. 15(a)(2), ‘this must be balanced against the requirement under Rule 16(b) that the Court’s
scheduling order shall not be modified except upon a showing of good cause.’” Manuel v. Pepsi­
Cola Co., 763 F. App’x 108, 109 (2d Cir. 2019) (quoting Holmes v. Grubman, 568 F.3d 329, 334
(2d Cir. 2009)); see Fed. R. Civ. P. 16(b)(4) (“A schedule may be modified only for good cause
and with the judge’s consent.”). Whether good cause exists turns on the diligence of the moving
party and whether the moving party’s amendment would significantly prejudice the non-moving
party. See Emengo v. Stark, No. 18-CV-1942,2019 WL 2206250, at *2 (2d Cir. May 22,
2019) (“The ‘primary consideration’ in assessing good cause is the ‘diligence’ of the moving

45

a52

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 46 of 47 PagelD #: 1020

party.” (citing Kassner v. 2ndAve. Deli. Inc., 496 F.3d 229, 244 (2d Cir. 2007))); see also
Werkingv. Andrews, 526 F. App’x 94,96 (2d Cir. 2013) (“We will find ‘good cause* where the
moving party has demonstrated ‘diligence’... and the amendment would not significantly
prejudice the nonmoving party.” (first citing Parker v. Columbia Pictures Indus., 204 F.3d 326,
340 (2d Cir. 2000); and then citing Kassner, 496 F.3d at 244)); Holmes, 568 F.3d at 33435 (“[T]he lenient standard under Rule 15(a), which provides leave to amend ‘shall be freely
given,* must be balanced against the requirement under Rule 16(b) that the Court’s scheduling
order ‘shall not be modified except upon a showing of good cause ....’ Whether good cause
exists turns on the diligence of the moving party.”) (citing Grochowski v. Phoenix Constr., 318
F.3d 80, 86 (2003) (quoting older versions of Rules 15(a) and 16(b) of the Federal Rules of Civil
Procedure)).
Having reviewed the proposed SAC, the Court finds that amendment would be futile. As
to Plaintiffs proposed section 1981 claim, claims of discrimination under section 1981 are
analyzed under the same standard as a Title VII claim. Vargas v. Morgan Stanley, 438 F. App’x
7, 9 (2d Cir. 2011) (analyzing Title VII and section 1981 discrimination claims under the same
standard). Plaintiff’s proposed section 1981 claim is based on Arzberger’s treatment of Plaintiff
as compared to her non-African-American counterparts. However, in light of the record before
the Court, Plaintiff’s section 1981 claim would fail for the same reasons her Title VII race
discrimination based on disparate treatment claim fails — Plaintiff fails to provide any evidence
from which the Court can infer that Arzberger treated similarly-situated ORTs different on the
basis of their race, color, or national origin.
In addition, Plaintiff alleges that she is a war veteran suffering from PTSD, that her
PTSD “became activated and exacerbated” during her employment, and that she provided

46

a53

Case l:16-cv-01784-MKB-LB Document 104 Filed 08/26/19 Page 47 of 47 PagelD #: 1021

Arzberger “a note to be out of work for four days.” (Proposed SAC ^ 25.) However, Plaintiff
testified under oath that she did not inform Defendant of her disability and did not request any
accommodation for her purported disability. Plaintiffs explicit deposition testimony was that
she “at no time” requested an accommodation in performing her job duties. (Cousar Dep. 153:621.) In light of the evidence before the Court, the Court finds that amendment would be futile.
III.

Conclusion
For the foregoing reasons, the Court grants Defendant’s motion for summary judgment,

denies Plaintiff’s cross-motion for summary judgment, and denies Plaintiff’s motion for leave to
amend. The Clerk of Court is directed to enter judgment for Defendant and close this case.
Dated: August 26, 2019
Brooklyn, New York
SO ORDERED:
s/ MKB
MARGO K. BROD1E
United States District Judge

47

a54

7/13/2021

19-3092 Docket
General Docket
Court of Appeals, 2nd Circuit

Court of Appeals Docket #: 19-3092
Nature of Suit: 3445 Americans w/Disibilities Act-E
Cousar v. New York-Presbyterian Queens
Appeal From: EDNY (BROOKLYN)
Fee Status: IFP Granted

Docketed: 09/25/2019
Termed: 02/18/2021

Case Type Information:
1) Civil
2) Private
3)Originating Court Information:
District: 0207-1 :16-cv-1784
Trial Judge: Margo Kitsy Brodie, U.S. District Judge
Trial Judge: Lois Bloom, U.S. Magistrate Judge
Trial Judge: Robert M. Levy, U.S. Magistrate Judge
Date Filed: 04/13/2016
Date Order/Judgment:
Date Order/Judgment EOD:
08/27/2019
08/27/2019

Date NOA Filed:
09/24/2019

Date Rec'd COA:

09/25/2019

Prior Cases:
None
Current Cases:
None
Panel Assignment:

Not available

Pecola Cousar
Plaintiff - Appellant

Pecola Cousar, Direct: 516-805-7210
[NTC Pro SeJ
676 Nereid Avenue
Apt. #17
Bronx, NY 10470

New York-Presbyterian Queens
Defendant - Appellee

James S. Frank, Attorney
Direct: 212-351-3720
[COR NTC Retained)
Epstein Becker & Green, P.C.
875 3rd Avenue
New York, NY 10022
John Houston Pope, Direct: 212-351-4500
[COR NTC Retained]
Epstein Becker & Green, P.C.
875 3rd Avenue
New York, NY 10022

https://ecf.ca2.uscourts.gov/n/beam/servlet/TransportR

APPENDIX D

a55
1/6

7/13/2021

19-3092 Docket

Pecola Cousar,
Plaintiff-Appellant,
v.
New York-Presbyterian Queens.
Defendant - Appellee.

a56
https://ecf.ca2.uscourts.goWn/beam/servlet/TransportRoom

2/6

7/13/2021

19-3092 Docket

*
pellant Pecola Cousar, FILED.

09/25/2019

Q j_
NOTICE OF C I^P^PPEAL, with district court docket, on behalf
i7pgTT42.43KB [2666740] [19-3092] [Entered: 09/27/2019 01:19 PM]

09/25/2019

Q 2
DISTRICT COURT MEMORANDUM & ORDER, dated 08/26/2019, RECEIVED.[2666743] [19-3092]
47pg,425.54KB [Entered: 09/27/2019 01:22 PM]

09/25/2019

□ 3
1 pg. 112.73 KB

09/25/2019

Q 4

i

DISTRICT COURT JUDGMENT, dated 08/27/2019, RECEIVED.[2666745] [19-3092] [Entered: 09/27/2019
01:23 PM]

\

ELECTRONIC INDEX, in lieu of record, FILED.[2666748] [19-3092] [Entered: 09/27/2019 01:23 PM]

17 pg. 178.88 KB

09/25/2019
09/27/2019

Q 6
1 pg.luSKB

DISTRICT COURT ORDER, dated 09/25/2019, granting IFP, RECEIVED.[2666751] [19-3092] [Entered:
09/27/2019 01:30 PM]

Q _5_

INSTRUCTIONAL FORMS, to Pro Se litigant, SENT.[2666749] [19-3092] [Entered: 09/27/2019 01:25 PM]

1 pg, 9.26 KB

10/11/2019

□ __
7
1 pg. 198.92 kb

ACKNOWLEDGMENT AND NOTICE OF APPEARANCE, on behalf of Appellee New York-Presbyterian
Queens, FILED. Service date 10/11/2019 by CM/ECF.[2678762] [19-3092] [Entered: 10/11/2019 04:17 PM]

10/11/2019

□ 8
1 pg, 52.08 kb

CERTIFICATE OF SERVICE, for Acknowledgement and Notice of Appearance of James $. Frank on
Behalf of New York-Presbyterian Queens, and the NEF related thereto., on behalf of Appellee New YorkPresbyterian Queens, FILED. Service date 10/11/2019 by US mail.[2678848] [19-3092] [Entered:
10/11/2019 05:16 PM]

10/22/2019

Q __
g
1 pg, 36.67 kb

ORDER, dated 10/22/2019, dismissing appeal by 11/12/2019, unless Appellant Pecola Cousar, submits the
Acknowledgment and Notice of Appearance, copy to pro se appellant, FILED.[2685622] [19-3092]
[Entered: 10/22/2019 12:31 PM]

10/22/2019

0 10
1 pg, 36.56 kb

ORDER, dated 10/22/2019, dismissing appeal by 11/12/2019, unless Appellant Pecola Cousar, submits
Form D-P, copy to pro se appellant FILED.[2685643] [19-3092] [Entered: 10/22/2019 12:52 PM]

2 pg, 866.51 kb

□ JL

ACKNOWLEDGMENT AND NOTICE OF APPEARANCE FORM, on behalf of Party Pecola Cousar, FILED. ;
Service date 10/21/2019 by US mail.[2687301] [19-3092] [Entered: 10/23/2019 03:16 PM]

□ ___
12
2pg.872.27KB

FORM D-P, on behalf of Appellant Pecola Cousar, FILED. Service date 10/21/2019 by US mail.[2687305]
[19-3092] [Entered: 10/23/2019 03:17 PM]

Q j8_

NEW CASE MANAGER, Dana Ellwood, copy to pro se appellant, ASSIGNED.[2693904] [19-3092]
[Entered: 10/31/2019 10:04 AM]

10/22/2019
10/22/2019
10/31/2019

1 pg. 9.53 KB

12/11/2019

Q 26
1 pg. 66.07 kb

ORDER, dated 12/11/2019, ordering that within 21 days of the date of this order, Appellant must either file
a transcript status update letter or a scheduling notification letter choosing a due date for her opening brief,
copy to pro se appellant, FILED.[2726494] [19-3092] [Entered: 12/11/2019 11:46 AM]

12/17/2019

Q 27

TRANSCRIPT STATUS UPDATE LETTER, dated 12/12/2019, on behalf of Appellant Pecola Cousar,
informing court of transcript delays, RECEIVED. No service.[2733492] [19-3092] [Entered: 12/18/2019
04:46 PM]

12/19/2019

Q 28
2 pg, 47.35 kb

DEFECTIVE DOCUMENT, Transcript Status Update Letter, [27], on behalf of Appellant Pecola Cousar,
copy to pro se appellant, FILED.[2733885] [19-3092] [Entered: 12/19/2019 10:16 AM]

01/08/2020 0 ___
30
- 3 pg, 597.83 KB

LR 31.2 SCHEDULING NOTIFICATION, on behalf of Appellant Pecola Cousar, informing Court of
proposed due date 03/19/2020, RECEIVED. Service date 01/03/2020 by US mail.[2748535] [19-3092]
[Entered: 01/09/2020 04:21 PM]

01/09/2020

0 31

CURED DEFECTIVE Transcript Status Update Letter 1281.1301. on behalf of Appellant Pecola Cousar,
FILED.[2748544] [19-3092] [Entered: 01/09/2020 04:23 PM]

01/10/2020

□ 34
1 pg. 19.53 kb

SO-ORDERED SCHEDULING NOTIFICATION, setting Appellant Pecola Cousar Brief due date as03/19/2020, copy to pro se appellant, FILED.[2748787] [19-3092] [Entered: 01/10/2020 08:46 AM]

04/08/2020

□ ___
36
5pg.30i.58KB

MOTION, to extend time, on behalf of Appellant Pecola Cousar, FILED. Service date 04/07/2020 by US
mail.[2816465] [19-3092] [Entered: 04/08/202005:10 PM]

04/16/2020

Q _4q_
ipg, 67.66 kb

MOTION ORDER, granting motion to extend time to file brief until 06/30/2020 [36] filed by Appellant Pecola ;
Cousar, by RKW, copy to pro se appellant FILED. [2820588][40] [19-3092] [Entered: 04/16/2020 12:58
PM]

06/30/2020

Q 42

BRIEF, on behalf of Appellant Pecola Cousar, FILED. No service. [2875789] [19-3092] [Entered:
07/01/2020 04:04 PM]

06/30/2020

□ 44

APPENDIX; not filed pursuant to LR 30.1(e), EXEMPTED.[2875893] [19-3092] [Entered: 07/01/2
PM]

07/01/2020

Q 43

DEFECTIVE DOCUMENT, Brief, [42], on behalf of Appellant Pecola Cousar, copy to pro se appe

https://etf.ca2.usaDurts.gov/n/beam/servlet/TransportRoom

!

a57
3/6

7/13/2021
2 pg, 60.02 KB

19-3092 Docket
FILED.[287579|^9-3092] [Entered: 07/01/2020 04:06 PM]

07/10/2020

Q 45
2pg.61.04kb

CERTIFICATE OF SERVICE for Appellant's brief, on behalf of Appellant Pecola Cousar, FILED. Service
date 07/02/2020 by US mail.[2883335] [19-3092] [Entered: 07/13/2020 04:17 PM]

07/21/2020

Q 49

LR 31.2 SCHEDULING NOTIFICATION, on behalf of Appellee New York-Presbyterian Queens, informing
Court of proposed due date 09/29/2020, RECEIVED. Service date 07/21/2020 by CM/ECF.[2889429] [193092] [Entered: 07/21/2020 05:46 PM]

07/22/2020
07/22/2020

□ 50
2 pg. 15.58 KB
Q
2 pg. 294.6 KB

07/22/2020

□ 52

07/23/2020 Q 55
14 pg. 982 KB

DEFECTIVE DOCUMENT, LR 31.2 Scheduling Notification, [49], on behalf of Appellee New YorkPresbyterian Queens, FILED.[2889767] [19-3092] [Entered: 07/22/2020 11:03 AM]
LR 31.2 SCHEDULING NOTIFICATION, on behalf of Appellee New York-Presbyterian Queens, informing
Court of proposed due date 09/29/2020, RECEIVED. Service date 07/22/2020 by US mail.[2889850j [193092] [Entered: 07/22/2020 11:46 AM]
CURED DEFECTIVE LR 31.2 Scheduling Notification [50], 1511. on behalf of Appellee New YorkPresbyterian Queens, FILED.[2890002] [19-3092] [Entered: 07/22/2020 01:26 PM]
BRIEF, on behalf of Appellant Pecola Cousar, FILED. Sen/ice date 07/01/2020 by US mail. [2891110] [193092] [Entered: 07/23/2020 02:51 PM]

07/23/2020 □ 56

CURED DEFECTIVE Brief [43], [55], on behalf of Appellant Pecola Cousar, FILED.[2891112] [19-3092]
[Entered: 07/23/2020 02:53 PM]

07/23/2020 Q 57

SO-ORDERED SCHEDULING NOTIFICATION, setting Appellee New York-Presbyterian Queens Brief due
date as 09/29/2020, copy to pro se appellant, FILED.[2891128] [19-3092] [Entered: 07/23/2020 02:59 PM]

1 pg. 20.3 KB

09/29/2020 □ ___
65
181 pg. 8.63 MB

09/29/2020 □ ___
66

APPENDIX, volume 1 of 2, (pp. 1-176), on behalf of Appellee New York-Presbyterian Queens, FILED.
Service date 09/29/2020 by US mail.[2941129J [19-3092] [Entered: 09/29/2020 04:55 PM]

224 pg. 6.72 MB

APPENDIX, volume 2 of 2, (pp. 177-395), on behalf of Appellee New York-Presbyterian Queens, FILED.
Service date 09/29/2020 by US mail.[2941133] [19-3092] [Entered: 09/29/2020 04:57 PM]

09/29/2020

Q ___
67
44 pg, 707.8 KB

BRIEF, on behalf of Appellee New York-Presbyterian Queens, FILED. Service date 09/29/2020 by US mail.
[2941135] [19-3092] [Entered: 09/29/2020 05:00 PM]

09/29/2020

Q 68
Ipg. 58.37 KB

CERTIFICATE OF SERVICE, for Brief for Defendant-Appellee and Appellee's Appendix Vols. I and II, on
behalf of Appellee New York-Presbyterian Queens, FILED. Service date 09/29/2020 by US mail.[2941145]
[19-3092] [Entered: 09/29/2020 05:03 PM]

09/30/2020

Q ___
69
2 pg. 102.88 KB

NOTICE OF APPEARANCE AS ADDITIONAL COUNSEL, on behalf of Appellee New York-Presbyterian
Queens, FILED. Service date 09/30/2020 by US mail. [2941642] [19-3092] [Entered: 09/30/2020 11:48 AM]

09/30/2020

Q 71

ATTORNEY, John Houston Pope for New York-Presbyterian Queens, in case 19-3092, [69], ADDED.
[2941702] [19-3092] [Entered: 09/30/2020 12:27 PM]

10/13/2020

□ ___
75
2 pg, 101.43 KB

ORAL ARGUMENT STATEMENT LR 34.1 (a), on behalf of filer Attorney Mr. John Houston Pope for
Appellee New York-Presbyterian Queens, FILED. Service date 10/13/2020 by US mail. [2950446] [193092] [Entered: 10/13/2020 12:37 PM]

10/13/2020

□ 76

CASE CALENDARING, for the week of 01/04/2021, PROPOSED.[2950654] [19-3092] [Entered:
10/13/2020 02:20 PM]

10/15/2020

□ ___
77
5 pg, 798.36 KB

MOTION, to extend time, on behalf of Appellant Pecola Cousar, FILED. Service date 10/12/2020 by US
mail.[2953411] [19-3092] [Entered: 10/15/2020 05:05 PM]

10/16/2020

□ ___
79
4pg, 131.54 KB

OPPOSITION TO MOTION, [77], on behalf of Appellee New York-Presbyterian Queens, FILED. Service
date 10/16/2020 by US mail. [2954319] [19-3092] [Entered: 10/16/2020 03:54 PM]

10/19/2020

□ 83
1 pg, 65.85 kb

MOTION ORDER, granting motion to extend time until 01/19/2021 to file reply brief [77] filed by Appellant
Pecola Cousar, by SJM, copy to pro se appellant, FILED. [2955404][83] [19-3092] [Entered: 10/19/2020
04:19 PM]

11/25/2020

0 87

CASE CALENDARING, for the week of 02/16/2021, PROPOSED.[2982474] [19-3092] [Entered:
11/25/2020 04:44 PM]

12/28/2020

□ 88

CASE CALENDARING, on submission for 02/16/2021, SET.[3001780] [19-3092] [Entered: 12/28/2020
06:30 PM]

01/19/2021

□ ___
92
REPLY BRIEF, on behalf of Appellant Pecola Cousar, FILED. Service date 01/19/2021 by US mail.
14P9.819.72KB [3017386] [19-3092][Entered: 01/20/2021 05:04PM]

01/20/2021
01/25/2021

Q _gj_
1 pg. 9.82 KB

SUBMITTED NOTICE, to attomeys/parties, TRANSMITTED. Copy to pro se party.[3017375] [19-3092]
[Entered: 01/20/2021 04:52 PM]

□ ___
96
1 pg. 166.93 kb

CERTIFICATE OF SERVICE for Reply Brief, on behalf of Appellant Pecola Cousar, FILED. Serv
01/19/2021 by US mail.[3020658] [19-3092] [Entered: 01/26/2021 08:34 AM]

https://ecf.ca2.uscourts.gOv/n/beam/servlet/TransportRoom

Q

4/6

7/13/2021
02/16/2021

02/18/2021

□ gs

19-3092 Docket
CASE, to DC.^f1, KAM, SUBMITTED.[3036566] [19-3092] [E^d: 02/16/2021 11:07 AM]

Q 100

NEW CASE MANAGER, Yana Segal, ASSIGNED.[3038461] [19-3092] [Entered: 02/18/2021 09:23 AM]

1 pg, 89.32 KB

02/18/2021
03/11/2021

□ 101
a pg. 420.61 KB

SUMMARY ORDER AND JUDGMENT, affirming judgment of the district court, by DC, MHP, K.
MATSUMOTO, copy to pro se, FILED.[3038478] [19-3092] [Entered: 02/18/2021 09:30 AM]

□ 103

JUDGMENT MANDATE, copy sent to pro se, ISSUED.[3053894] [19-3092] [Entered: 03/11/2021 11:05

6 pg. 798.51 KB

03/22/2021

Q 104

AM]

PETITION FOR REHEARING/REHEARING EN BANC, on behalf of Appellant Pecola Cousar, FILED.
Service date 03/22/2021 by US mail.[3062632J [19-3092] [Entered: 03/24/2021 10:57 AM]

03/24/2021

Q ____
1Q5
2 pg. mo4 kb

DEFECTIVE DOCUMENT, petition for rehearing en banc, [104],[104], on behalf of Appellant Pecola
Cousar, FILED.[3062635] [19-3092] [Entered: 03/24/2021 10:58 AM]

04/08/2021

Q 106
3 pg. 220.08 kb

MOTION, to recall mandate and permission to file petition for rehearing en banc out of time, on behalf of
Appellant Pecola Cousar, FILED. Service date 04/07/2021 by US mail.[3074388] [19-3092] [Entered:
04/09/2021 01:36 PM]

04/09/2021

□ 107

CURED DEFECTIVE motion [106]. [105]. on behalf of Appellant Pecola Cousar, FILED.[3074390] [193092] [Entered: 04/09/2021 01:37 PM]

□ 110

OPPOSITION TO MOTION, to recall mandate [106], on behalf of Appellee New York-Presbyterian Queens,
FILED. Service date 04/20/2021 by US mail. [3082043] [19-3092] [Entered: 04/20/2021 05:42 PM]

04/20/2021

9 pg.l73J4 kb

04/27/2021 □ 114

05/19/2021

1 pg, 152.57 kb

MOTION ORDER, denying motion to recall mandate and for permission to file a petition for rehearing en
banc out of time P1061 filed by Appellant Pecola Cousar, by DC, MHP, K. MATSUMOTO, copy to pro se,
FILED. [3087185][114] [19-3092] [Entered: 04/27/2021 09:08 AM]

Q 115

PAPERS, Notice of Appeal to the Supreme Court, RECEIVED.[3103604] [19-3092] [Entered: 05/19/2021

3 pg. 207.51 kb

10:28 AM]

a59
https://ecf.ra2.uscourts.goV/n/beam/servlet/TransportRoom

5/6

7/13/2021

Eastern District of New York - LIVE Database 1.6 (

Query

ports

Utilities

Help

ion 1.6.2)

Log Out

CLOSED,ACO,CASREF,MEDSNR

U.S. District Court
Eastern District of New York (Brooklyn)
CIVIL DOCKET FOR CASE #: l:16-cv-01784-MKB-LB
Cousar v. New York-Presbyterian/Queens
Assigned to: Chief Judge Maigo K. Brodie
Referred to: Magistrate Judge Lois Bloom
Magistrate Judge Robert M. Levy (Settlement)
Cause: 42:2000e Job Discrimination (Employment)

Date Filed: 04/13/2016
Date Terminated: 08/27/2019
Jury Demand: Plaintiff
Nature of Suit: 445 Civil Rights: Americans
with Disabilities - Employment
Jurisdiction: Federal Question

Mediator
Joseph DiBenedetto

represented by Joseph DiBenedetto
JDB Mediation LLC
300 North End Avenue
New York, NY 10282
Email: jdibened@jdbmediation.com
PROSE

Plaintiff
Pecola Cousar

represented by Pecola Cousar
676 Nereid Avenue, Apt.# 17
Bronx, NY 10470
(516) 805-7210
Email: Pecola007@aol.com
PRO SE
Mary Kathryn Austin
730 Columbus Ave
Apt 6h
New York, NY 10025
(412)759-1985
Fax: (412)759-1985
Email: mkaustin221@gmail.com
TERMINATED: 08/21/2017
ATTORNEY TO BE NOTICED
James D. Hartt
James Hartt Attorney At Law
70 Linden Oaks, 3rd Floor
Rochester, NY 14625
585-490-7100
Fax: 716-299-2006
Email: james@harttlegal.com
TERMINATED: 02/07/2017
RNEY TO BE NOTICED

APPENDIX E
https://ecf.nyed.uscourts.gov/cgi-bin/DktRptpl71669917344ei«7y;ir;i_;(Pr

a60
1/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (^^ion 1.6.2)

V.
Defendant
New York-Presbyterian/Queens

represented by James S. Frank
Epstein Becker & Green, P.C.
250 Park Avenue
New York, NY 10177
212-351-4500
Fax: 212-878-8750
Email: jfrank@ebglaw.com
LEAD ATTORNEY
ATTORNEY TO BE NOTICED
Brian Gilbert Cesaratto
Epstein Becker & Green, P.C.
250 Park Avenue
New York, NY 10177
212-351-4500
Fax: 212^878-8656
Email: bcesaratto@ebglaw.com
ATTORNEY TO BE NOTICED
Lori A Medley
Epstein Becker & Green P.C.
250 Park Avenue
New York, NY 10177
212-351-4500
Fax: 212-878-8600
Email: lmedley@ebglaw.com
ATTORNEY TO BE NOTICED
Richard Adam Stern
Epstein, Decker & Green P.C.
250 Park Avenue
New York, NY 10177
212-351-3745
Fax:212-878-8600
Email: rstem@ebglaw.com
ATTORNEY TO BE NOTICED

Date Filed

#

04/13/2016

1

04/13/2016

Docket Text
COMPLAINT Pecola Coitsar against New York-Presbyterian/Queens filing fee $ 400,
receipt number 0207-8530200 Was the Disclosure Statement on Civil Cover Sheet
completed -YES,, filed by Pecola Cousar. (Attachments: # i Civil Cover Sheet, # 2
Proposed Summons, # 3 Exhibit EEOC Right to Sue) (Hartt, James) (Entered:
04/13/2016)
Case Assigned to Judge Margo K. Brodie and Magistrate Judge Lois Bloom. Please
download and review the Individual Practices of the assigned Judges, located on our
website. Attorneys are responsible for providing courtesy copies to judges where
Individual Practices require such. (Davis, Kimberly) (Entered: 04/13/2016)

a61

https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.pl7166991734468279-L_1_0-1

2/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Rewsion 1.6.2)

2 In accordanc^Jfth Rule 73 of the Federal Rules of deprocedure and Local Rule 73.1,
the parties are notified that if&M parties consent a United States magistrate judge of this
court is available to conduct all proceedings in this civil action including a (jury or
i
nonjury) trial and to order the entry of a final judgment. Attached to the Notice is a blank I
copy of the consent form that should be filled out, signed and filed electronically only if
all parties wish to consent. The form may also be accessed at the following link:
,i

04/13/2016

your consent without adverse substantive consequences. Do NOT return or file the
consent unless all parties have signed the consent (Davis, Kimberly) (Entered:
04/13/2016)
04/13/2016

3

04/13/2016

4 Summons Issued as to New York-Presbyterian/Queens. (Davis, Kimberly) (Entered:
04/13/2016)

This attorney case opening filing has been checked for quality control. See the attachment j
for corrections that were made, if any. (Davis, Kimberly) (Entered: 04/13/2016)
i
.. I

05/09/2016

5

05/17/2016

6 Consent MOTION for Extension of Time to File Answer re 1 Complaint, or Otherwise
Respond by New York-Presbyterian/Queens. (Frank, James) (Entered: 05/17/2016)

05/18/2016

7 ENDORSED STIPULATION AND ORDER, granting Defendant New York-Presbyterian
/ Queens's 6 Motion for an Extension of Time to Answer, Respond, or otherwise move
with respect to the Complaint until, and including, 6/18/2016. SO ORDERED by
!
Magistrate Judge Lois Bloom, on 5/18/2016. (Latka-Mucha, Wieslawa) (Entered:
05/19/2016)

06/09/2016

8

06/09/2016

2 ANSWER to 1 Complaint, and Defenses by New York-Presbyterian/Queens. (Frank,

SUMMONS Returned Executed by Pecola Cousar. New York-Presbyterian/Queens
served on 4/27/2016, answer due 5/18/2016. (Hartt, James) (Entered: 05/09/2016)

Corporate Disclosure Statement by New York-Presbyterian/Queens (Frank, James)
(Entered: 06/09/2016)
James) (Entered: 06/09/2016)

06/10/2016

07/06/2016

SCHEDULING ORDER: The Court shall hold an initial pretrial conference in this action ;
on July 12, 2016 at 10:30 a.m. in Courtroom 11A South. The parties shall exchange their j
Rule 26(a)(1) initial disclosures and file a 26(f) Meeting Report by July 5, 2016. Parties j
are advised that they must contact each other before making any request for an
'
adjournment to the Court. Any request for an adjournment must be electronically filed
j
with the Court at least forty-eight (48) hours before the scheduled conference. Ordered by ‘
Magistrate Judge Lois Bloom on 6/10/2016. (Gannon, Rebecca) (Entered: 06/10/2016)
;
10 Proposed MOTION to Adjourn Conference Scheduled on July 12th, 2016 by Pecola
Cousar. (Hartt, James) (Entered: 07/06/2016)

07/07/2016

ORDER granting 10 Motion to Adjourn Conference: The initial conference in this matter
is adjourned to August 16, 2016 at 9:30 a.m., and is converted to a telephonic conference.
Plaintiffs counsel shall first contact Defendant's counsel and then the Court at 718-613*
2170. The Rule 26(f) Report deadline is concomitantly adjourned to August 9, 2016.
Ordered by Magistrate Judge Lois Bloom on 7/7/2016. (Marquez, Lillian) (Entered:
07/07/2016)

07/12/2016

Set/Reset Scheduling Order Deadlines: Telephone Conference set for 8/16/2016 09:30
AM before Magistrate Judge Lois Bloom. (Marquez, Lillian) (Entered: 07/12/2016)

08/05/2016

11

i

!

Letter MOTION to Adjourn Conference by New York-Presbyterian/Queens. (Fra
James) (Entered: 08/05/2016)

https://ecrf.nyed.uscourts.gov/cgi-bin/DktRpt.pl7166991734468279-L_1_0-1

a62
3/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

ORDER gd£g II Motion to Adjourn Conference; BhEDULING ORDER: The

08/10/2016

initial telephone conference, previously scheduled for August 16, 2016 at 9:30 a.m., is
adjourned to August 24,2016 at 9:30 a.m. Plaintiffs counsel shall contact Defendant's
counsel and then the Court at 718-613-2170. In addition, the parties shall file the Rule
26(f) Report by August 17, 2016. Ordered by Magistrate Judge Lois Bloom on
8/10/2016. (DeAtley, Tavish) (Entered: 08/10/2016)
08/17/2016

12

08/17/2016

08/22/2016

Letter MOTION for Extension of Time to File FRCP 26(f) Report by New YorkPresbyterian/Queens. (Frank, James) (Entered: 08/17/2016)
ORDER granting 12 Motion for Extension of Time to File: Defendant requests an
i
extension of time to file the 26(f) report as plaintiffs counsel has yet to reply to
defendant's proposed discovery plan. The Court grants defendant's request and directs
plaintiff's counsel to immediately contact defense counsel to discuss the report. The Rule
26(f) report is to be electronically filed by August 22, 2016. Ordered by Magistrate Judge j
Lois Bloom on 8/17/2016. (DeAtley, Tavish) (Entered: 08/17/2016)

12 REPORT of Rule 26(f) Planning Meeting (Frank, James) (Entered: 08/22/2016)

08/24/2016

Minute Entry for proceedings held before Magistrate Judge Lois BloonrTelephone
Conference held on 8/24/2016 (Tape #9:49-9:58; 2:04-2:28.) (DeAtley, Tavish) (Entered: !
08/24/2016)

08/24/2016

The Court held an initial telephone conference in plaintiffs employment discrimination
matter today. Plaintiffs counsel failed to appear for the conference. After reaching
plaintiffs counsel by telephone, I warned counsel that any future failure to appear or
comply with Court orders shall be subject to sanctions under Rules 16(f) and 37(b). The
Court adopted in part and denied in part the deadlines proposed by the parties' Rule 26(f)
report. Plaintiff is to provide defendants with executed HIPPA medical authorizations by
September 1,2016. Any amended pleadings or motions to join are due by September 1,
2016. See Fed. R. Civ. P. 16(b)(3)(A). The parties shall complete all discovery by January
16, 2017. Any request for a pre-motion conference shall be made to Judge Brodie, in
accordance with her rules, by January 30, 2017. If the parties believe that mediation will
be fruitful, the parties shall file a joint letter requesting that the Court refer the matter to
mediation. Ordered by Magistrate Judge Lois Bloom on 8/24/2016. (DeAtley, Tavish)
(Entered: 08/24/2016)

09/14/2016

14 NOTICE of Appearance by Brian Gilbert Cesaratto on behalf of New YorkPresbyterian/Queens (aty to be noticed) (Cesaratto, Brian) (Entered: 09/14/2016)

01/13/2017

15 Letter MOTION for Extension of Time to Complete Discovery by Pecola Cousar. (Hartt,
James) (Entered: 01/13/2017)

01/17/2017

!

j
I
!

i

ORDER granting 15 Motion for Extension of Time to Complete Discovery; Defendant
requests a thirty-day extension of time to complete discovery. Plaintiff consents.
Defendant's request is granted. The parties shall complete all discovery by February 14,
2017. Any request for a pre-motion conference shall be made to Judge Brodie, in
accordance with her rules, by February 28, 2017. Ordered by Magistrate Judge Lois
Bloom on 1/17/2017. (DeAtley, Tavish) (Entered: 01/17/2017)

j
;
!

01/24/2017

16

01/27/2017

17 ORDER, Pltffs counsel has failed to comply with Local Civil Rule 1.4 as the mot
withdraw as counsel fails to state whether counsel is asserting a retaining or charg _
lien. Therefore, the motion to withdraw is denied without prejudice. If Ms. Cousai <*0,3

Notice of MOTION to Withdraw as Attorney by Pecola Cousar. (Attachments: # I
Exhibit Cousar Consent to Withdrawal, # 2 Declaration of James Hartt, # 3 Certificate of j
Service to Plaintiff, # 4 Certificate of Service to Opposing Counsels) (Hartt, James)
(Entered: 01/24/2017)
—»

https://ecf.nyed.uscourts.gov/cgi-bin/DktRptpl?166991734468279-L_1_0-1

4/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Riston 1.6.2)

i
to terminate ^^^Hartt's representation, she shall shall ^le to the Court by 2/8/17, and
then she shall be given 30 days to find new counsel. The deadlines to complete discovery
and file any pre-motion conference request are stayed until 2/8/17. (Ordered by
Magistrate Judge Lois Bloom on 1/25/2017) c/m (Galeano, Sonia) (Entered: 01/27/2017) |

02/06/2017

18 MOTION to Disqualify Counsel by Pecola Cousar. (Ramesar, Thameera) (Entered:
02/07/2017)

02/07/2017

19 ORDER: By letter-motion filed 2/6/2017, Ms. Cousar requests that the Court terminate
Mr. Hartt as her attorney of record. Plaintiff’s 18 request is granted. Plaintiff shall have 45
days to find new counsel. The Clerk of Court shall terminate Mr. Hartt as plaintiffs
attorney of record. The Clerk of Court shall also update the docket sheet to reflect
plaintiffs contact information. The Court shall hold a status conference on March 24,
2017 at 10:30 a.m. in Courtroom 11A South in of the United States Courthouse. If Ms.
Cousar is unable to find new counsel, she shall appear in person at the March 24th
conference and shall be prepared to proceed pro se. SO ORDERED by Magistrate Judge
Lois Bloom, on 2/7/2017. C/mailed. (Attorney James D. Hartt terminated.) (LatkaMucha, Wieslawa) (Entered: 02/07/2017)

03/23/2017

m

i
;
!

!

NOTICE of Appearance by Lori A Medley on behalf of New York-Presbyterian/Queens
(aty to be noticed) (Medley, Lori) (Entered: 03/23/2017)

i

03/24/2017

21

03/24/2017

22 ORDER: As discussed at the conference, the Court finds this matter appropriate for
«
mediation. Accordingly, the Court hereby refers the instant actionto mediation. The
parties are directed to contact Robyn Weinstein, the Court’s ADR Administrator, at (718)
613-2578. The parties shall select a mediator by 5/5/2017. Mediation shall be completed
by 6/16/2017. The parties shall promptly inform the Court upon the conclusion of the
mediation. Discovery is stayed pending the parties' good faith effort to resolve this case ;
through mediation. SO ORDERED by Magistrate Judge Lois Bloom on 3/24/2017.
(Order Referring case to the Court Annexed Mediation Advocacy Program. Request to
ADR Departmentfor pro bono counselfor the purpose ofmediation. Upon securing pro
bono counsel, ADR Administrator shall provide the parties with a list ofavailable pro
bono mediators. Mediator shall be selected within thirty daysfrom date pro bono counsel
is secured.) (Latka-Mucha, Wieslawa) (Entered: 03/27/2017)

03/27/2017

Minute Entry for proceedings held before Magistrate Judge Lois Bloom: Status
Conference held on 3/24/2017. Recorded. Tick #(s) 10:37 - 11:30. Appearances for
Plaintiff: pro se Pecola Cousar; for Defendant: Lori Medley, Esq. (Latka-Mucha,
Wieslawa) (Entered: 03/27/2017)

MEDIATION INSTRUCTIONS for parties referred to the Mediation Advocacy Program
can be found on the Courts ADR website at https://www.nyed.uscourts.gov/adr-forms.

t

Upon securing pro bono counsel, ADR Administrator shall provide the parties with a list
of available pro bono mediators to you via e-mail. Counsel are to select a mediator,
schedule the first mediation session, and file the name of the mediator, date, time and
place of the first mediation session via CM/ECF using the event Selection of Mediator.
The Confidentiality Stipulation must be signed at the mediation session by all
participants, including the mediator, and sent via email to
Robyn_Weinstein@nyed.uscourts.gov. The Confidentiality Stipulation is available at:
https://www.nyed.uscourts.gov/adr-forms.
Upon completion of the mediation, both parties must submit a Mediation Report ’
can be found at: https://www.nyed.uscourts.gov/adr-forms. The Mediation Repor
https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.pf7166991734468279-L_1_0-1

!

a64
5/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

be e-mailed t^^>byn Weinstein at Robyn_Weinstein(§i^d.uscourts.gov within two
weeks following mediation session. (Weinstein, Robyn) (Entered: 03/27/2017)
.i

04/06/2017

2a

05/09/2017

06/14/2017

NOTICE of Appearance by Mary Kathryn Austin on behalf of All Plaintiffs (aty to be
noticed) (Austin, Mary) (Entered: 04/06/2017)

j
)

:
SELECTION OF MEDIATOR Joseph DiBenedetto selected as Mediator. The first
mediation session will take place on June 14, 2017. Fourteen days on or before the
j
session date, counsel shall file with the Mediator their client's mediation statement
j
summarizing the facts, legal issues, particulars of any prior settlement discussions, and
!
the name and title of the client or client representative with full settlement authority who j
will attend the mediation in person. Attendance in person is required of the trial attorney, j
insurance adjuster, and client or client representative with full settlement authority. The j
Confidentiality Stipulation must be signed at the mediation session by all participants and j
the Mediator and returned to Robyn Weinstein, ADR Administrator,
j
Robyn_Weinstein@nyed.uscourts.gov or fax (718) 613-2333. Contact information for the j
Mediator is on the docket sheet. Upon completion of the mediation, both parties must
j
submit a Mediation Report which can be found at: https://www.nyed.uscourts.gov/adrj
j
forms. The Mediation Report must be e-mailed to Robyn Weinstein at
Robyn_Weinstein@nyed.uscourts.gov within two weeks following mediation
|
session.Report of Mediation due by 6/28/2017. (Weinstein, Robyn) (Entered: 05/09/2017) j
24

ORDER: The Court has been notified that plaintiffs pro bono mediation counsel is
j
currently unavailable due to a recent family medical emergency. Accordingly, the Court's j
deadlines concerning the mediation process are extended. The mediation shall be
completed by 8/15/2017 and the parties shall file a joint status report no later than
8/30/2017. SO ORDERED by Magistrate Judge Lois Bloom, on 6/14/2017. (A Joint
Status Report due by 8/30/2017.) (Latka-Mucha, Wieslawa) (Entered: 06/15/2017)

07/10/2017

SELECTION OF MEDIATOR Joseph DiBenedetto as Mediator. The first mediation
session was rescheduled and will now take place on August 17,2017. Fourteen days on !
or before the session date, counsel shall file with the Mediator their client's mediation
statement summarizing the facts, legal issues, particulars of any prior settlement
discussions, and the name and title of the client or client representative with full
settlement authority who will attend the mediation in person. Attendance in person is
required of the trial attorney, insurance adjuster, and client or client representative with
full settlement authority. The Confidentiality Stipulation must be signed at the mediation
session by all participants and the Mediator and returned to Robyn Weinstein, ADR
Administrator, Robyn_Weinstein@nyed.uscourts.gov or fax (718) 613-2333. Contact
information for the Mediator is on the docket sheet. Upon completion of the mediation,
both parties must submit a Mediation Report which can be found at:
https://www.nyed.uscourts.gov/adr-forms. The Mediation Report must be e-mailed to
Robyn Weinstein at Robyn_Weinstein@nyed.uscourts.gov within two weeks following
mediation session.Report of Mediation due by 8/9/2017. (Weinstein, Robyn) Modified on
7/10/2017 (Weinstein, Robyn). Modified on 8/7/2017 (Weinstein, Robyn). (Entered:
07/10/2017)

08/18/2017

REPORT of Mediation unsettled. Both parties must submit a Mediation Report which can j
be found at: https://www.nyed.uscourts.gov/adr-forms. The Mediation Report must be e- \
mailed to Robyn Weinstein at Robyn_Weinstein@nyed.uscourts.gov within two weeks
l
following mediation session.Mediation Report Questionnaires due by 9/1/2017.
(Weinstein, Robyn) (Entered: 08/18/2017)

08/21/2017

21 SCHEDULING ORDER: By 22 Order dated 3/24/2017, the Court referred the instant

!
matter to mediation. On 8/18/2017, Robyn Weinstein, the Court's ADR Administra
reported that the mediation was unsuccessful. Accordingly, the Court shall hold a s jj,U 5

https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.pl7166991734468279-L_1_0-1

6/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

conference 0^^19/2017 at 10:00 a.m. in Courtroom l^P South conference of the United
States Courthouse. SO ORDERED by Magistrate Judge Lois Bloom, on 8/21/2017.
C/mailed. (Attorney: Mary Kathryn Austin terminated.) (Latka-Mucha, Wieslawa)
(Entered: 08/22/2017)
09/08/2017

26 Letter MOTION for an Extension of Time; filed by Pecola Cousar, dated 9/6/2017.
(Latka-Mucha, Wieslawa) (Entered: 09/08/2017)

09/11/2017

22 ORDER: By letter dated 9/8/2017, plaintiff requests "additional time to defend and/or

;
I
!
|
;

acquire [] new legal counsel[.])" The Court shall address plaintiffs 26 requests at the
previously scheduled 9/19/2017 status conference. SO ORDERED by Magistrate Judge
Lois Bloom, on 9/11/2017. (Electronic notice to pro se Plaintiffvia e-mail.) (LatkaMucha, Wieslawa) (Entered: 09/12/2017)
09/19/2017

09/21/2017

28 Minute Entry for proceedings held before Magistrate Judge Lois Bloom: Status
Conference held on 9/19/2017. Recorded. Tick #(s) 10:30 - 10:36. ProSe Plaintiff did
not appear. Appearance for Defendant: Brian G. Cesaratto, Esq. (Latka-Mucha,
Wieslawa) (Modified) (Entered: 09/19/2017)

i
i

22 SCHEDULING ORDER: Pltff failed to appear for the 9/19/17 conference. Pltff shall
timely appear at all future conferences. After waiting thirty minutes for pltff to appear,
the Court proceeded with the conference in pltffs absence and set the following
discovery schedule. The parties shall complete all discovery by 1/31/18. Generally,
parties must respond to discovery requests in writing within 30 days. Because 1/31/18 is
the deadline for the completion of all discovery, requests to the opposing party must be
served at least 30 days before that deadline. The parties may conduct depositions upon
oral examination pursuant to FRCP 30. Before requesting the Court's assistance re: a
discovery dispute, the parties must make a good faith effort to resolve the dispute with
one another. Pltff is advised that the City Bar Justice Center operates a Federal Pro Se
Legal Assistance Project within the Brooklyn Federal Courthouse. The Legal Assistance
Project provides free information, advice, and limited-scope legal assistance to people
proceeding without lawyers in the Eastern District. Upon completion of discovery, any
party seeking to file a dispositive motion shall file a pre-motion conference request in
accordance with Judge Brodie's Individual Motion Practices and Rules by 2/14/18.
(Ordered by Magistrate Judge Lois Bloom on 9/20/2017) c/m (Attachments: # 1 Federal
Pro Se Legal Assistance Project) (Galeano, Sonia) (Entered: 09/21/2017)

09/29/2017

11/09/2017

m

i

\
f

j
|
;

Letter dated September 26, 2017 from Pecola Cousar to Magistrate Bloom, requesting
information on the court's jurisdiction on this case. (Piper, Francine) (Entered:
10/02/2017)

:

21 Letter dated November 2, 2017 from Pecola L. Cousar to Court Clerk, requesting the
court's jurisdiction of the case. (Piper, Francine) (Entered: 11/09/2017)

11/13/2017

32

11/28/2017

22 AFFIDAVIT OF FACTS filed by Pecola Cousar (Piper, Francine) (Entered: ll/30/7ni

11/30/2017

24 Minute Entry for proceedings held before Magistrate Judge Lois Bloom: Status

j

ORDER: Plaintiff has filed two letters with the Court requesting information regarding
"the Court’s jurisdiction of the case[.]" ECF Nos. 20,21. The Court shall hold a status
conference on 11/30/2017 at 10:30 a.m. in Courtroom 11 A South conference of the
United States Courthouse. Plaintiff failed to appear for the last conference in this matter.
ECF No. 2£. Plaintiff is warned that if she fails to timely appear at the 11/30/2017
conference, I shall recommend that this case should be dismissed pursuant to Rules
16(1) and 37(b)(2)(A)(v) of the Federal Rules of Civil Procedure. SO ORDERED by
Magistrate Judge Lois Bloom, on 11/13/2017. C/mailed. (Latka-Mucha, Wieslawa)
(Entered: 11/14/2017)

https://ecf.nyed.uscoijrts.gov/cgi-bin/DktRptpl7166991734468279-L_1_0-1

\
j
j
!
j
I
I
*
;
;

7/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (R^sion 1.6.2)

Conference l^on 11/30/2017. Recorded. Tick#(s)

*

-11:31. Appearances for
Plaintiff: Pecola Cousar, pro se; for Defendant: Brian Gilbert Cesaratto, Esq. (LatkaMucha, Wiesiawa) (Entered: 12/01/2017)
12/01/2017

35

SCHEDULING ORDER: At the conference, plaintiff informed the Court that she had not j
retained new counsel and would proceed pro se. The Court referred the matter to
j
mediation. As discussed at the conference, if plaintiff intends on proceeding with this
j
action, she shall timely appear for the continuation of her deposition at 9:30 a.m. on
|
12/14/2017 at Epstein Becker & Green, P. C., 250 Park Avenue, New York, NY 10177. j
)
Plaintiff is warned that if she fails to timely appear for her December 14th
deposition, I shall recommend that this case should be dismissed pursuant to Rules
16(1) and 37(b)(2)(A)(v) of the Federal Rules of Civil Procedure. As previously 29
ordered, all discovery shall be completed by 1/31/2018 and any pre-motion conference
j
request shall be filed in accordance with Judge Brodie's individual rules by 2/14/2018.
SO ORDERED by Magistrate Judge Lois Bloom, on 12/1/2017. (Electronic notice to pro
se Plaintiff via e-mail) Plaintiffs Deposition setfor 12/14/2017. (Latka-Mucha,
Wiesiawa) (Entered: 12/04/2017)
i
.. .!

12/07/2017

TRANSCRIPT of Proceedings held on November 30, 2017, before Judge Bloom. Court
Reporter/Transcriber Transcriptions Plus II, Inc.. Email address: laferrara44@gmail.com. i
Transcript may be viewed at the court public terminal or purchased through the Court
Reporter/Transcriber before the deadline for Release of Transcript Restriction. After that j
date it may be obtained through PACER.File redaction request using event "Redaction
i
Request - Transcript" located under "Other Filings - Other Documents". Redaction
Request due 12/28/2017. Redacted Transcript Deadline set for 1/8/2018. Release of
Transcript Restriction set for 3/7/2018. (Hong, Loan) (Entered: 12/07/2017)
------

12/13/2017

32 AFFIDAVIT of Pecola Cousar, Re: Do Not Consent to the Mandated Court Ordered
Deposition. (Piper, Francine) (Entered: 12/14/2017)

12/28/2017

38 Letter MOTION to Dismiss by New York-Presbyterian/Queens. (Cesaratto, Brian)
(Entered: 12/28/2017)

12/28/2017

39 AFFIDAVIT/DECLARATION in Support re 38 Letter MOTION to Dismiss filed by
New York-Presbyterian/Queens. (Attachments: # 1 Exhibit A to Declaration of Brian G.
Cesaratto in Support of Defendant's Motion to Dismiss, # 2 Exhibit B to Declaration of
Brian G. Cesaratto in Support of Defendant's Motion to Dismiss, # 3 Exhibit C to
Declaration of Brian G. Cesaratto in Support of Defendant's Motion to Dismiss, # 4
Exhibit D to Declaration of Brian G. Cesaratto in Support of Defendant's Motion to
Dismiss, # 5 Exhibit E to Declaration of Brian G. Cesaratto in Support of Defendant's
Motion to Dismiss, # 6 Exhibit F to Declaration of Brian G. Cesaratto in Support of
Defendant's Motion to Dismiss) (Cesaratto, Brian) (Entered: 12/28/2017)

01/02/2018

40 NOTICE of Appearance by Richard Adam Stem on behalf of New YorkPresbyterian/Queens (aty to be noticed) (Stem, Richard) (Entered: 01/02/2018)

01/16/2018

41

01/17/2018

AFFIDAVIT: To Withdraw Lawsuit by Pecola L. Cousar, Re: Withdrawing from the
United States Eastern District of New York Courts. (Williams, Erica) (Entered:
01/17/2018)
SCHEDULING ORDER. Status Conference is scheduled for January 31, 2018 at
10:30 AM before Judge Margo K. Brodie. Ordered by Judge Margo K. Brodie on
1/17/2018. (Francis-McLeish, Ogoro) (Entered: 01/17/2018)
..j

01/26/2018

42 AMENDED COMPLAINT /AFFIDAVITSUPPLEMENTAL PLEADINGS
RETALIATION against New York-Presbyterian/Queens, filed by Pecola Cousar. (P
Francine) (Entered: 01/29/2018)

https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.pl7166991734468279-L_1_0-1

a67
8/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

01/30/2018

43 AFFIDAVIT7 FACTS (AMENDMENT) filed by
(Entered: 02M/2018)

01/30/2018

44 AFFIDAVIT OF FACTS (AMENDMENT) filed by Pecola Cousar (Piper, Francine)
(Entered: 02/01/2018)

01/31/2018

02/09/2018

02/12/2018

la Cousar (Piper, Francine)

f

Minute Entry for proceedings held before Judge Margo K. Brodie:Status Conference held j
on 1/31/2018. Plaintiff appeared pro se. Brian Gilbert Cesaratto and Richard Adam Stem j
appeared on behalf of defendant. The Court directed plaintiff to attend her deposition
!
rescheduled for February 20,2018 at 10 am. The Court dismissed 38 defendant's motion j
to dismiss dated December 28, 2017. In light of plaintiffs supplemental pleadings,
j
defendant has until after plaintiffs deposition to respond to or move to dismiss the new i
claims in the supplemental pleading by letter motion to dismiss. Any such motion must >
be filed on or before February 28,2018. (Court Reporter Linda Marino.) (Chu, Chan
Hee) (Entered: 01/31/2018)
i

45 AFFIDAVIT OF FACTS filed by Pecola Cousar. (Piper, Francine) (Additional
attachments) added on 2/12/2018: # 1 Mailing Envelope) (Piper, Francine). (Entered:
02/12/2018)

!

i

46 AFFIDAVIT OF FACTS - AMENDED filed by Pecola Cousar (Piper, Francine)
(Entered: 02/12/2018)

__

02/13/2018

47 ANSWER to 42 Amended Complaint by New York-Presbyterian/Queens. (Cesaratto,
Brian) (Entered: 02/13/2018)

02/26/2018

49 AFFIDAVIT - Request for Discovery filed by Pecola Cousar (Piper, Francine) Modified
on 2/28/2018 to change filing date (Piper, Francine). (Entered: 02/28/2018)

02/26/2018

50 AFFIDAVIT of Default - Delegation of Authority filed by Pecola Cousar (Piper,
Francine) (Entered: 02/28/2018)

02/26/2018

51

02/26/2018

4
52 AFFIDAVIT - Plaintiffs Response/Rebuttal - Supplemental Pleadings Breach of Contract I
and Forgery filed by Pecola Cousar (Piper, Francine) (Entered: 02/28/2018)

j
j

AFFIDAVIT of Fact- Status filed by Pecola Cousar (Piper, Francine) (Entered:
02/28/2018)

02/28/2018

48 Letter MOTION for Discovery and Pre-Motion Conference Request by New YorkPresbyterian/Queens. (Cesaratto, Brian) (Entered: 02/28/2018)

02/28/2018

53

03/28/2018

54 Letter dated March 27, 2018 from Pecola L. Cousar-El, advising the court of plaintiffs
current status and requesting time to resume the discovery portion of the case.
(Attachments: # i Death Certificate, # 2 Mailing Envelope) (Piper, Francine) (Entered:
03/30/2018)

ORDER: By letter-motion dated 2/28/2018, defendant requests an extension of time to
complete discovery. The 48 request is granted. The parties shall complete all discovery
by 3/30/2018. Any pre-motion conference request shall be filed in accordance with Judge
Brodie's individual mles by 4/13/2018. SO ORDERED by Magistrate Judge Lois Bloom,
on 2/28/2018. C/mailed. (Discovery due by 3/30/2018.) (Latka-Mucha, Wieslawa)
(Entered: 03/01/2018)
!

!

04/02/2018

ORDER finding as moot 38 Motion to Dismiss. The Court dismissed this motion to
dismiss for the reasons stated on the record on January 31,2018. Ordered by Judge
Margo K. Brodie on 4/2/2018. (Chu, Chan Hee) (Entered: 04/02/2018)

04/03/2018

ORDER re 54 Letter request for extension of discovery. The Court directs the def
to respond to plaintiffs request for extension of discovery, in light of defendant's 3.00

https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.p!?166991734468279-L_1_Q-1

9/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

previously p^fetsed schedule, on or before April 5, 2dQl Ordered by Judge Margo K.
Brodie on 4/3^018. (Chu, Chan Hee) (Entered: 04/03/2018)
04/04/2018

55

04/09/2018

04/26/2018

Letter in Response to Plaintiffs Request For an Extension ofDiscovery (Docket no. 54)
by New York-Presbyterian/Queens (Cesaratto, Brian) (Entered: 04/04/2018)
ORDER re 55 Defendant's response to Plaintiffs request for extension of discovery. The
parties shall complete all discovery by 4/30/2018. Any pre-motion conference request
shall be filed by 5/14/2018. Ordered by Judge Margo K. Brodie on 4/9/2018. (Chu, Chan
Hee) (Entered: 04/09/2018)
i

£6 AFFIDAVIT filed by Pecola Cousar: Request for Discovery Extension; Response to

Defendant's objection to document; Productions and Interrogatories Request & Response j
to Forgery Claim. (Piper, Francine) (Entered: 04/30/2018)
j
04/30/2018

57 NOTICE of Criminal Complaint filed by Pecola L. Cousar (Piper, Francine) (Entered:
05/01/2018)

05/01/2018

05/08/2018

{

ORDER re 56 Plaintiff letter regarding discoveiy related issues. Defendant is directed to
file a response to plaintiffs letter on or before May 8, 2018. Ordered by Judge Margo K.
Brodie on 5/1/2018. (Chu, Chan Hee) (Entered: 05/01/2018)

£8 Letter MOTION for pre motion conference to File Motion For Summary Judgment,
Letter MOTION to Quash Plaintiffs Request For Additional Discovery by New YorkPresbyterian/Queens. (Attachments: # \ Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4
Exhibit D, # 5 Exhibit E) (Cesaratto, Brian) (Entered: 05/08/2018)

05/15/2018

59 AFFIDAVIT Request for Summary Judgment: Affidavits Left Unrebutted,
Evasive/Incomplete Disclosure, Failure to Comply with Court Order filed by Pecola
Cousar (Attachments: # I Exhibit 1, # 2 Exhibit 2, # 3 Exhibit 3, # 4 Exhibit 4, # 5
Exhibit Added Reference Documents, # 6 Mailing Envelope) (Piper, Francine) (Entered:
05/16/2018)

05/15/2018

60 NOTICE of Email (Attachments: # i Mailing Envelope) (Piper, Francine) (Entered:
05/16/2018)

06/05/2018

61

08/13/2018

08/13/2018

Letter dated May 26, 2018 from Pecola Cousar to Pro Se Office, advising that signed
affirmations of service will be provided to defendants. (Piper, Francine) (Entered:
06/05/2018)
ORDER re 58 Motion for Pre Motion Conference: A Pre Motion Conference is set for
September 6, 2018 at 11:00 AM in Courtroom 6F North before Judge Margo K. Brodie.
Ordered by Judge Margo K. Brodie on 8/13/2018. (Brucella, Michelle) (Entered:
08/13/2018)

62 Letter MOTION to Adjourn Conference by New York-Presbyterian/Queens. (Cesaratto,
Brian) (Entered: 08/13/2018)

08/15/2018

ORDER granting 62 Motion to Adjourn Conference. Pre Motion Hearing is
RESCHEDULED to September 14,2018 at 10:00 AM in Courtroom 6F North before
Judge Margo K. Brodie. Ordered by Judge Margo K. Brodie on 8/15/2018. (Brucella,
Michelle) (Entered: 08/15/2018)

09/14/2018

Minute Entry for proceedings held before Judge Margo K. Brodie: A pre-motion
conference was held on September 14, 2018. Plaintiff appeared pro se. Brian G. Cesaratto
and Richard A. Stem appeared on behalf of defendant. For the reasons stated on the
record, the Court denied plaintiffs request for additional discovery and set the ft "
briefing schedule for defendant's motion for summary judgment: defendant shall
moving papers on or before October 18, 2018; plaintiff shall serve opposition pa

a69

https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.pl?166991734468279-L_1_0-1

10/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

or before D
January 11,
09/14/2018)
09/24/2018

ber 22, 2018; defendant shall serve rdjj^papers, if any, on or before
9. (Court Reporter Denise Parisi.) (Morel, Christopher) (Entered:

61 Letter dated 9/25/2018 from Pecola L. Cousar EL to Judge Brodie advising the Court that ,
he believes that Judge Bloom presiding over negotiations is a conflict of interest and
requests that another Magistrate /Mediator be assigned. (Marziliano, August) (Entered:
09/25/2018)

09/26/2018

09/26/2018

i

64 Letter to Judge Margo K. Brodiefrom Brian G. Cesaratto re: In Response to Plaintiffs
Letter to the Court on September 25, 2018 requesting that a different Magistrate Judge
be assigned to replace Magistrate Judge Lois Bloom by New York-Presbyterian/Queens
(Cesaratto, Brian) (Entered: 09/26/2018)

:
|
*

65 AFFIDAVIT - Document Missing entitled " Affidavit - Request for Status Check (on)
Summary Judgment Submission filed by Pecola Cousar. (Piper, Francine) (Entered:
09/27/2018)

09/27/2018

ORDER granting 63 Letter application dated September 25, 2018 from Pecola L.
i
Cousar-EI seeking that the matter be referred to a different magistrate judge for
settlement purposes, on consent of defendant by 64 letter dated September 26, 2018. The
case is referred to Magistrate Judge Robert M. Levy for settlement purposes. Ordered by
Judge Margo K. Brodie on 9/27/2018. (Brucella, Michelle) (Entered: 09/27/2018)
\

09/27/2018

CASE REFERRED to Magistrate Judge Magistrate Judge Robert M. Levy for settlement
purposes. (Marziliano, August) (Entered: 09/27/2018)

10/01/2018

66 Letter dated October 1, 2018 from Pecola Cousar to Judge Brodie, regarding a settlement
offer. (Piper, Francine) (Entered: 10/01/2018)
-H

10/01/2018

62

10/01/2018

68 Letter dated October 1, 2018 from Pecola Cousar to Judge Brodie, RE: Amend
Interrogatories - Right to improve through discovery. (Piper, Francine) (Entered:
10/02/2018)

10/01/2018

62 Letter dated October 1, 2018 from Pecola Cousar to Judge Brodie, Re: Renewal

Letter dated October 1,2018 from Pecola Cousar to Judge Brodie, regarding notice of
personal representative. (Piper, Francine) (Entered: 10/02/2018)

i

i

application - summary judgment with oral argument. (Piper, Francine) (Entered:
10/02/2018)
10/02/2018

SCHEDULING ORDER: An in-person settlement conference has been scheduled for
{
October 16,2018 at 3:30 p.m., before the Hon. Robert M. Levy, USMJ in Courtroom
1
1 IB South. Ordered by Magistrate Judge Robert M. Levy on 10/2/2018. (Marino, Janine) j
(Entered: 10/02/2018)

10/04/2018

ORDER. The parties are invited to submit confidential pre-settlement conference
statements of up to 3 pages by 10/12/18. They may be faxed to chambers at (718) 6132345.0rdered by Magistrate Judge Robert M. Levy on 10/4/2018. (Levy, Robert)
(Entered: 10/04/2018)

10/05/2018

70 Consent MOTION for Extension of Time to File Motion for Summary Judgment by New j
York-Presbyterian/Queens. (Cesaratto, Brian) (Entered: 10/05/2018)

10/09/2018

ORDER granting 20 Motion for Extension of Time to File. Defendant's moving papers
j
shall be served on or before November 6,2018; Plaintiffs opposition shall be served on
or before January 10, 2019; and Defendant's Reply, if any, shall be served on or 1
January 30, 2019. Ordered by Judge Margo K. Brodie on 10/9/2018. (Morel, Chi q7Q
(Entered: 10/09/2018)

https://ecf.nyed.uscourts.gov/cgi-bin/DktRptpl7166991734468279-L_1_0-1

11/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

ORDER re

10/09/2018

. By letters dated October 1, 2018,^j^ntifT seeks to improve on her

previous interrogatories and renews her request for summary judgment. As the Court
explained at the conference on September 14,2018, pursuant to Rule 33 of the Federal
Rules of Civil Procedure, interrogatories may only be served on parties to the case. The
Court dismissed plaintiffs interrogatories because they were addressed to non-parties to
the action. The Court therefore denies plaintiffs application to improve on her
interrogatories to non-parties. The Court will consider plaintiffs summary judgment
motion when deciding defendants summary judgment motion, if the parties are unable to
reach a settlement. The Court will schedule oral argument on the summary judgment
motions if it deems it necessary. Ordered by Judge Margo K. Brodie on 10/9/2018.
(Morel, Christopher) (Entered: 10/09/2018)
10/10/2018

21

AFFIDAVIT 2nd SuBmission of Documents Missing - entitled "Affidavit of
Facts/Documents: Monthly Work Schedules/Audio Recording" filed by Pecola Cousar.
(Attachments: # I Mailing Envelope) (USB RECORDING ATTACHED TO
DOCUMENT) (Piper, Francine) (Entered: 10/11/2018)

10/16/2018

Minute Entry for proceedings held before Magistrate Judge Robert M. Levy. Settlement
Conference held on 10/16/2018. Settlement negotiations will continue. Next conference
scheduled for 10/24/18 at 3:00 PM. (FTR Log #3:41-5:57 SEALED) (Ferrara, Alicia)
Modified on 10/25/2018 (Ferrara, Alicia). (Entered: 10/16/2018)

10/24/2018

Minute Entry for proceedings held before Magistrate Judge Robert M. Levy: Lengthy
settlement conference. Defendant will advise chambers shortly whether it accepts
plaintiffs last settlement demand.Settlement Conference held on 10/24/2018 (FTR Log
#3:13-5:56. SEALED ) (Levy, Robert) (Entered: 10/24/2018)

10/26/2018

Minute Entry for proceedings held before Magistrate Judge Robert M. Levy: Picoula
Cousar, pro se; Brian Cesaratto. Defendant responded to plaintiffs settlement demand.
The court conveyed defendant's response to plaintiff. Plaintiff will contact the court with
a response by 10/31/18.Settlement Conference held on 10/26/2018 (FTR Log #3:35-3:53- SEALED.) (Levy, Robert) (Entered: 10/26/2018)

10/31/2018

Minute Entry for proceedings held before Magistrate Judge Robert M. Levy: Ex parte
conference with plaintiff, on consent. Ms. Cousar will contact the court on
ll/l/18.Settlement Conference held on 10/31/2018 (FTR Log #12:52-1:05 SEALED.)
(Levy, Robert) (Entered: 10/31/2018)

10/31/2018

|
I
j
|

11 AFFIDAVIT OF OPPOSITION/SETTLEMENT DENIAL by Pecola Cousar. (Lee,
Tiffeny) (Entered: 11/01/2018)

11/02/2018

73

Letter MOTION for Extension of Time to File Motion for Summary Judgment by New
York-Presbyterian/Queens. (Cesaratto, Brian) (Entered: 11/02/2018)

11/02/2018

ORDER granting 73 Motion for Extension of Time to File. Defendant shall serve its
motion for summary judgment on or before November 20, 2018; Plaintiff shall serve her
response on or before January 24, 2019; Defendant's reply, if any, shall be served on or
before February 13, 2019. Ordered by Judge Margo K. Brodie on 11/2/2018. (Morel,
Christopher) (Entered: 11/02/2018)

11/05/2018

Minute Entry for proceedings held before Magistrate Judge Robert M. Levy: Settlement
discussion with plaintiff, then defendant, on consent. [FTR: 4:24-4:27
SEALED].Settlement Conference held on 11/1/2018 (Levy, Robert) (Entered:
11/05/2018)

11/14/2018

74 Letter dated November 14, 2018 from Pecola Cousar-El to Judge Brodie, requests
conference to discuss an "Offer of Proof(Piper, Francine) (Entered: 11/15/2018)

https://ecf.nyed.uscourts.gov/cgi-bin/DktRplpl7166991734468279-L_1_0-1

!
qJ J
12/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

ORDER re ^fcetter requesting a conference. The Cd^^denies plaintiffs request for a

11/16/2018

j

conference without prejudice. Plaintiff must submit in writing all evidence in support of j
her motion for summary judgment and in opposition to defendant's motion for summary j
judgment. To the extent plaintiff seeks to amend her complaint, she must either obtain
*
defendant's consent or file a motion for leave to file an amended complaint pursuant to
j
Rule 15(a) of the Federal Rules of Civil Procedure. Ordered by Judge Margo K. Brodie
on 11/16/2018. (Morel, Christopher) (Entered: 11/16/2018)
11/16/2018

11/20/2018

ORDER re ]2 Affidavit filed by Pecola Cousar. In view of plaintiffs filing and
confidential settlement discussions I have had with the parties, it is apparent that another
settlement conference would not be useful at this time. The parties, however, are invited
to contact me in die event circumstances change and a resumption of settlement
discussions would be appropriate. Ordered by Magistrate Judge Robert M. Levy on
11/16/2018. (Levy, Robert) (Entered: 11/16/2018)

11 Letter From Brian Cesaratto, Counsel For Defendant, to Pecola Cousar El, Plaintiff, Pro j
Se, Dated November 20, 2018, Enclosing Defendant's Motion For Summary Judgment
And Supporting Papers by New York-Presbyterian/Queens (Cesaratto, Brian) (Entered:
11/20/2018)

11/29/2018

76 Letter dated November 29, 2018 from Pecola Cousar El to Judge Brodie, requesting
clarification of the court's order dated November 2, 2018 granting time to file summary
judgment. (Piper, Francine) (Entered: 12/04/2018)

12/04/2018

01/23/2019

j
I

ORDER re 76 Letter dated November 29, 2018 from Pecola Cousar El. Defendant
elected to serve its motion and electronically file it with the Court once it is fully-briefed
(that is, after plaintiff responds and defendant serves its reply). Plaintiff can elect to either
do the same or serve her motion with the Court once it is served on defendant Both
methods comply with the Courts Individual Practices and Rules. Ordered by Judge
Margo K. Brodie on 12/4/2018. (Morel, Christopher) (Entered: 12/04/2018)

77 MOTION for Leave to File Document 2nd Amended Complaint by Pecola Cousar.
(Attachments: # 1 Second Amended Complaint) (Piper, Francine) (Entered: 01/24/2019) j

01/24/2019

ORDER re 77 Motion for Leave to File Second Amended Complaint. Defendant shall file
a response to plaintiffs motion for leave to file a second amended complaint on or before
February 1, 2019. Ordered by Judge Margo K. Brodie on 1/24/2019. (Morel, Christopher)
(Entered: 01/24/2019)

02/01/2019

78

02/06/2019

72 Plaintiffs Notice of Objection and Opposition to Defendant's New York

MEMORANDUM in Opposition re XL MOTION for Leave to File Document 2nd
Amended Complaint filed by New York-Presbyterian/Queens. (Frank, James) (Entered:
02/01/2019)

\
!
|
«
|
!
j

Presbyterian/Queens' Memorandum of Law Which Opposes Plaintiffs 77 MOTION for
Leave to File Document 2nd Amended Complaint filed by Pecola Cousar. (Lee, Tiffeny)
(Entered: 02/07/2019)
02/06/2019

m

...........--........-

-'■■■

'

.....................

,

................... ...........................

,

............................................................................. __

AFFIRMATION in Support of Plaintiffs Notice of Objection and Opposition to
Defendants' Memorandum of Law by Pecola Cousar. (Lee, Tiffeny) (Entered:
02/07/2019)

i

!
I

02/13/2019

81 Notice of MOTION for Summary Judgment by New York-Presbyterian/Queens. (Frank,
James) (Entered: 02/13/2019)

02/13/2019

82

02/13/2019

83 AFFIDAVIT/DECLARATION in Support re 81 Notice of MOTION for Summan

RULE 56.1 STATEMENT re £1 Notice of MOTION for Summary Judgment filer1 u"
New York-Presbyterian/Queens. (Frank, James) (Entered: 02/13/2019)

https://ecf.nyed.uscourts.gov/cgi-bin/DktRpt.pl7166991734468279-L_1_0-1

a72
13/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (R^jsion 1.6.2)

Judgment
ofLorraine Orlando) filed by NeiBro rk-Presbyterian/Queens.
(Frank, JamesX(Entered: 02/13/2019)
02/13/2019

84 AFFIDAVIT/DECLARATION in Support re 81 Notice of MOTION for Summary
Judgment (Affidavit ofDonna Arzberger) filed by New York-Presbyterian/Queens.
(Frank, James) (Entered: 02/13/2019)

02/13/2019

85 NOTICE by New York-Presbyterian/Queens re 81 Notice of MOTION for Summary
Judgment (Notice to Pro Se Litigant Who Opposes a Motion For Summary Judgment)
(Frank, James) (Entered: 02/13/2019)

02/13/2019

i

!

£6 AFFIDAVIT/DECLARATION in Support re £1 Notice of MOTION for Summary
Judgment (Declaration ofBrian G. Cesaratto) filed by New York-Presbyterian/Queens.
(Attachments:.# 1 Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D, # 5 Exhibit E, #
6 Exhibit F, # 2 Exhibit G, # 8 Exhibit H, # 9 Exhibit I, # 10 Exhibit J, # U Exhibit K, #
12 Exhibit L, # 13 Exhibit M, # 14 Exhibit N, # 15 Exhibit O, # 16 Exhibit P, # 17
Exhibit Q, # 18 Exhibit R, # 19 Exhibit S, # 20 Exhibit T, # 21 Exhibit U, # 22 Exhibit V,
# 23 Exhibit W, # 24 Exhibit X, # 25 Exhibit Y, # 26 Exhibit Z, # 27 Exhibit AA)
(Cesaratto, Brian) (Entered: 02/13/2019)

!
j
!
j
i

02/13/2019

87 MEMORANDUM in Support re 81 Notice of MOTION for Summary Judgment filed by
New York-Presbyterian/Queens. (Frank, James) (Entered: 02/13/2019)

02/13/2019

M

02/13/2019

£2 CERTIFICATE OF SERVICE by New York-Presbyterian/Queens re &8 Reply in Support j

*
REPLY in Support re 81 Notice of MOTION for Summary Judgment (Reply
Memorandum ofLaw in Support of Motion For Summary Judgment) filed by New YorkPresbyterian/Queens. (Frank, James) (Entered: 02/13/2019)

(Reply Memorandum ofLaw in Support ofMotion For Summary Judgment) (Frank,
James) (Entered: 02/13/2019)
02/15/2019

ORDER re 77 MOTION for Leave to File 2nd Amended Complaint. The Court will
consider Plaintiffs motion for leave to file a second amended complaint when deciding
the parties' motions for summary judgment. In addition, plaintiff shall file a response, if
any, to defendant's &I motion for summary judgment on or before March 4, 2019.
Ordered by Judge Margo K. Brodie on 2/15/2019. (Morel, Christopher) (Entered:
02/15/2019)
"11 ■■■*"

02/21/2019

I
!

'

■

-----------------------

-

.

......................................

. .,-r,,.

___________ ___ _____________________

»

2Q CERTIFICATE OF SERVICE by New York-Presbyterian/Queens re 8£ Reply in Support I
ofDefendant’s Motion for Summary Judgment (Cesaratto, Brian) (Entered: 02/21/2019)

f

03/04/2019

21

03/04/2019

92 AFFIDAVIT by Pecola Cousar for Response to Defendant's Motion for Summary
Judgment. (Attachments: # 1 Mailing Envelope) (Piper, Francine) (Entered: 03/06/2019) |

03/04/2019

93

Letter dated March 4, 2019 from Pecola Cousar to Judge Brodie, requesting that the court j
!
accept the corrected 2nd amended complaint dated March 4, 2019 to replace the 2nd
!
amended complaint in Document #77. (Attachments: # 12nd Amended Verified
Complaint, # 2 Mailing Envelope) (Piper, Francine) (Entered: 03/06/2019)

j

03/04/2019

03/04/2019

Affidavit Amendment for "Race and Color Misnomers along with African American,
Black, Indian" filed by Pecola Cousar (Attachments: # I Mailing Envelope) (Piper,
Francine) (Entered: 03/06/2019)

>
;

94 Affidavit for Response Affidavits of Donna Arzberger and Lorraine Orlando filed by
Pecola Cousar (Attachments: # 1 Mailing Envelope) (Piper, Francine) (Entered:
03/06/2019)

i

95 Affidavit for Memorandum of Law in Support of Plaintiffs Opposition to Defend; rj
Motion for Summary Judgment filed by Pecola Cousar. (Attachments: # 1 Mailing <& ID

https://etf.nyed.uscourts.gov/cgi-bin/DktRpt.pl7166991734468279-L_1_0-1

14/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

Envelope) (l^^r, Francine) (Entered: 03/06/2019)
03/14/2019

______

2fi Letter MOTION for Leave to File Document /Reply to Plaintiffs Opposition in Response
to the Hospital’s Summary Judgment Motion by New York-Presbyterian/Queens.
(Cesaratto, Brian) (Entered: 03/14/2019)

i

03/21/2019

97 RULE 56.1 STATEMENT - Defendant's Reply to Plaintiffs Counter-Statement of
Material Facts filed by New York-Presbyterian/Queens. (Frank, James) (Entered:
03/21/2019)

03/21/2019

2£

03/21/2019

99 MEMORANDUM in Support re 81 Notice of MOTION for Summary Judgment
*
(Defendant's Reply Memorandum ofLaw in Further Support ofIts Motion For Summary ;
Judgment) filed by New York-Presbyterian/Queens. (Frank, James) (Entered:
!
03/21/2019)

AFFIDAVIT/DECLARATION in Support re 81 Notice of MOTION for Summary
Judgment Reply Affidavit ofLorraine Orlando in Further Support ofDefendant's Motion
For Summary> Judgment filed by New York-Presbyterian/Queens. (Attachments: # l
Exhibit A, # 2.Exhibit B) (Frank, James) (Entered: 03/21/2019)

04/22/2019

100

AFFIDAVIT: Matter of Proof of Claim and Designated Trustee on Account by Pecola
Cousar. (Fernandez, Erica) (Entered: 04/23/2019)

05/09/2019

101

Letter dated April 28, 2019 from Pecola L. Cousar-El to Judge Brodie, advising that the
response time from the last request pertaining to the documents of Trust/Creditor
Account 365825873 should be by 20 days from the date of receipt of this letter dated
April 25,2019. (Piper, Francine) (Entered: 05/09/2019)

05/30/2019

102

NOTICE OF FILING OF OFFICIAL TRANSCRIPT of Proceedings held on September
14,2018, before Judge Brodie. Court Reporter/Transcriber Denise Parisi, Telephone
number 718-613-2605. Email address: deniseparisi72@gmail.com. Transcript may be
viewed at the court public terminal or purchased through the Court Reporter/Transcriber
before the deadline for Release of Transcript Restriction. After that date it may be
!
obtained through PACER.File redaction request using event "Redaction Request Transcript" located under "Other Filings - Other Documents". Redaction Request due
j
6/20/2019. Redacted Transcript Deadline set for 7/1/2019. Release of Transcript
j
Restriction set for 8/28/2019. (Parisi, Denise) (Entered: 05/30/2019)

06/19/2019

103

AFFIDAVIT of Default on Affidavit "Matter of Proof of Claim and Designated Trustee
on Account" and Submission of (form 56), Notice of Fiduciary Relationship filed by
Pecola Cousar (Piper, Francine) (Entered: 06/20/2019)

\

08/26/2019

104

08/27/2019

105 JUDGMENT: It is ORDERED and ADJUDGED that Defendant's motion for summary
judgment is granted; that Plaintiffs cross-motion for summary judgment is denied; that
Plaintiffs motion for leave to amend is denied; and that judgment is hereby entered in
favor of Defendant. ORDERED by Jalitza Poveda, Deputy Clerk on behalf of Douglas C.
Palmer, Clerk of Court on 8/27/2019. (Copy ofthis Judgment and the attached appeals
packet sent to pro se Plaintiff viafirst class mail) (Latka-Mucha, Wieslawa) (Entered:
08/27/2019)

09/23/2019

MEMORANDUM & ORDER [DISMISSING CASE]: The Court grants Defendant’s 81
motion for summary judgment, denies Plaintiffs 52 cross-motion for summary judgment,
and denies Plaintiffs 22 motion for leave to amend. The Clerk of Court is directed to
enter judgment for Defendant and close this case. SO ORDERED by Judge Margo K.
Brodie, on 8/26/2019. (See document for details: Forwardedfor Judgment.) (LatkaMucha, Wieslawa) (Entered: 08/26/2019)

i

j
!
1
1

108 AFFIDAVIT of Corum Novis, "Writ of Error" by Pecola Cousar (Piper, Francine) JJ.7 4

https://ecf.nyed.uscourts.gov/cgi-bin/DktRptpl7166991734468279-L_1_0-1

15/16

7/13/2021

Eastern District of New York - LIVE Database 1.6 (Revision 1.6.2)

(Entered: 09^2019)
09/24/2019

106

l

NOTICE OF APPEAL as to 104 Order on Motion for Leave to File,, Order on Motion for >
Summary Judgment, Order Dismissing Case, 105 Clerk's Judgment, by Pecola Cousar.
1
No fee paid. Request for In Forma Pauperis pending. Service done electronically.
j
(McGee, Mary Ann) (Entered: 09/25/2019)
1

09/25/2019

Electronic Index to Record on Appeal sent to US Court of Appeals. 106 Notice of
|
Appeal, Documents are available via Pacer. For docket entries without a hyperlink or for I
documents under seal, contact the court and we'll arrange for the documents) to be made t
available to you. (McGee, Mary Ann) (Entered: 09/25/2019)

09/25/2019

107 MOTION for Leave to Appeal in forma pauperis by Pecola Cousar. (McGee, Mary Ann) |
i
(Entered: 09/25/2019)

?-

09/25/2019
03/11/2021

ORDER granting 107 Motion for Leave to Appeal in forma pauperis. Ordered by Judge
Margo K. Brodie on 9/25/2019. (Johnson, Alexsis) (Entered: 09/25/2019)
109 MANDATE of USCA as to 106 Notice of Appeal, filed by Pecola Cousar. IT IS
ORDERED, that the judgment of the District Court is AFFIRMED. Please see document
for further details. Issued as Mandate: 3/11/2021. USCA# 19-3092. (Jones, Vasean)
(Entered: 03/11/2021)

I
■

i

a75
https://ecf.nyed.iiscourts.gov/cgi-bin/DktRptpl7166991734468279-L_1_0-1

16/16

